<html>
<title> - FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON THE ROLE OF SOCIAL AND BEHAVIORAL SCIENCES IN NATIONAL SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-165]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

    BUDGET REQUEST ON THE ROLE OF SOCIAL AND BEHAVIORAL SCIENCES IN 
                           NATIONAL SECURITY

                               __________

                          MEETING JOINTLY WITH

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                             Serial No. 95

                               __________

                              HEARING HELD

                             APRIL 24, 2008

                                     
     [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 ------

                      U.S. GOVERNMENT PRINTING OFFICE
44-412                     WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001





                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
   Subcommittee on Terrorism, Unconventional Threats and Capabilities
                       One Hundred Tenth Congress

                 HON. ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK UDALL, Colorado                 MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN GILLIBRAND, New York         BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
                 Tim McClees, Professional Staff Member
               Alex Kugajevksy, Professional Staff Member
                     Andrew Tabler, Staff Assistant
                                 ------                                

               HOUSE COMMITTEE ON SCIENCE AND TECHNOLOGY
             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                Jim Wilson, Subcommittee Staff Director
          Dahlia Sokolov, Democratic Professional Staff Member
          Mele Williams, Republican Professional Staff Member
                   Bess Caughran, Research Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, April 24, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on The Role of Social and 
  Behavioral Sciences in National Security.......................     1

Appendix:

Thursday, April 24, 2008.........................................    33
                              ----------                              

                        THURSDAY, APRIL 24, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
    THE ROLE OF SOCIAL AND BEHAVIORAL SCIENCES IN NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Baird, Hon. Brian, a Representative from Washington, Chairman, 
  Research and Science Education Subcommittee....................     2
Ehlers, Hon. Vernon J., a Representative from Michigan, Ranking 
  Member, Research and Science Education Subcommittee............     3
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................    25

                               WITNESSES

Schweitzer, Col. Martin P., Commander, 4/82 Airborne Brigade 
  Combat Team, U.S. Army.........................................     6
Segal, Dr. David R., Professor of Sociology and Director, Center 
  for Research on Military Organization, University of Maryland 
  College Park...................................................    10
Van Tilborg, Dr. Andre, Deputy Under Secretary of Defense, 
  Science and Technology, Department of Defense..................     4
Weiss, Dr. Mark L., Division of Behavioral and Cognitive 
  Sciences, Directorate of Social, Behavioral and Economic 
  Sciences, National Science Foundation..........................     8

                                APPENDIX

Prepared Statements:


    Baird, Hon. Brian............................................    38
    Schweitzer, Col. Martin P....................................    69
    Segal, Dr. David R...........................................    52
    Smith, Hon. Adam.............................................    37
    Van Tilborg, Dr. Andre.......................................    40
    Weiss, Dr. Mark L............................................    59

Documents Submitted for the Record:

    Our Intellectual Freedom article submitted by John Allen 
      Williams...................................................    77

Questions and Answers Submitted for the Record:


    Mr. Lipinski.................................................    83
    Mr. Smith....................................................    89

 
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
    THE ROLE OF SOCIAL AND BEHAVIORAL SCIENCES IN NATIONAL SECURITY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Terrorism, Unconventional Threats and 
            Capabilities Subcommittee, Meeting Jointly with 
            Committee on Science and Technology, Research 
            and Science Education Subcommittee, Washington, 
            DC, Thursday, April 24, 2008.
    The subcommittees met, pursuant to call, at 9:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the Subcommittee on Terrorism, Unconventional 
Threats and Capabilities) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good morning. We have witnesses and a lot of 
other folks in other places, and hopefully while Mr. Baird and 
I are making our opening statements, Mr. Ehlers will show up. 
Mr. Thornberry had a briefing this morning and informed us that 
he would be a little late. So we will just go ahead and get 
started. So I call the committee to order.
    This is a joint committee this morning between the 
Terrorism, Unconventional Threats and Capabilities 
Subcommittee, and we are joined by Mr. Baird from the Science 
Subcommittee on Research and Science Education from the 
Committee on Science and Technology.
    I appreciate all of you being here. We are here this 
morning to discuss the role of social and behavioral science in 
national security. I have an opening statement which I will 
submit for the record. Having read the witness testimonies 
yesterday, I think this will be a very interesting hearing, 
which touches on a number of different issues.
    Certainly, understanding the culture of the communities 
that our military forces are going to are critical wherever 
they are, and it varies from community to community, but it is 
a critical element in the type of warfare that we are fighting 
now especially, which is basically counterinsurgency where we 
are trying to win over the local population. So understanding 
their cultures, their interests, and their human behavior and 
how it varies from place to place is critical.
    Also very interesting are some of the studies that are 
going on in terms of evaluating overall populations so that you 
can begin to predict behavior of populations, and predicting 
that behavior can have an impact on military decisions on a 
number of different levels. That is an area that frankly I 
don't understand. I am very interested to hear this morning 
about how we are developing that, as well as the other issues 
that have been raised.
    With that, I will turn it over to my Washington state 
colleague from the Science Committee, Representative Baird, for 
any opening statement he has.

     STATEMENT OF HON. BRIAN BAIRD, A REPRESENTATIVE FROM 
     WASHINGTON, CHAIRMAN, RESEARCH AND SCIENCE EDUCATION 
                          SUBCOMMITTEE

    Mr. Baird. I want to thank Chairman Smith, Ranking Member 
Thornberry, and the staff, particularly our good friend Tim 
McClees for his work on this, and also my staff on the Science 
Committee and my personal staff. Dr. Ehlers also has been very 
instrumental in this.
    As a clinical psychologist by training, but someone who has 
taken a great interest in defense issues as well, I find this a 
particularly exciting and interesting topic. Many members of 
the public and the media have been surprised to learn about the 
role of the social sciences in our defense strategies, but as 
Chairman Smith mentioned, the changes in the type of warfare we 
are fighting and the situations our soldiers are finding 
themselves in necessitates this kind of preparation and this 
kind of research.
    It struck me as I was in Iraq last time, we were in one of 
the new Mine Resistant Ambush Protection (MRAP) vehicles. Of 
course, when it was discovered or demonstrated that those 
vehicles saved a lot of lives, we spared virtually no expense 
to get them in the field to protect our soldiers. As our 
witnesses are going to report, and from some of the written 
testimony, some of the interventions that we are seeing and the 
advice getting to our soldiers in the field from the social 
sciences are saving lives as well.
    Helping to understand that role in our military posture and 
the training of our troops in an international involvement I 
think is particularly important, as is the importance of 
understanding the stresses and opportunities and strains facing 
our soldiers and their families here at home, and the extensive 
research that we hear about today in that area is particularly 
illuminating.
    I think it is especially exciting that we have research in 
this area being done by both National Science Foundation (NSF) 
and by the armed services. To be perfectly honest, I think 
joint committee hearings are relatively rare in this 
institution. We have been siloing elsewhere in the government 
and realize that was not a good idea. Thanks to Chairman Smith 
and the staff on the Republican and Democratic side, bringing 
two different committees which people might not usually see as 
having common interests together around something like this, I 
think will be quite illuminating.
    So I thank our witnesses today for not only being here, but 
far more importantly, for your lifetime of service, through 
your research and your service in the military. Thank you and I 
look forward very much to your testimony. I am glad you are 
here and very grateful.
    Mr. Smith. Thank you.
    I will now turn it over to Mr. Ehlers for any opening 
statement he may have.

   STATEMENT OF HON. VERNON J. EHLERS, A REPRESENTATIVE FROM 
   MICHIGAN, RANKING MEMBER, RESEARCH AND SCIENCE EDUCATION 
                          SUBCOMMITTEE

    Dr. Ehlers. Thank you very much. I apologize for being 
late. I was chairing another meeting, and unfortunately I have 
to leave for yet another one almost immediately, but I 
appreciate you calling this hearing. I am pleased to be a part 
of this joint hearing because I agree that social and 
behavioral science research has a tremendous role to play in 
the security of our Nation.
    General Patton, who as you probably know did not practice 
social sciences very well, said, ``Wars may be fought with 
weapons, but they are won by men. It is the spirit of the men 
who follow and of the man who leads that gains the victory.'' 
Social and behavioral research can help us determine what 
motivates the spirit of our military men and women and their 
leaders, as well as those who wish our Nation harm.
    It is perhaps that last category where we need help in 
understanding the unorthodox enemies that we face in the world 
today. I meant ``unorthodox'' in a non-religious sense. 
Clearly, most of them are orthodox in the religious sense.
    I know that the National Science Foundation is doing 
yeoman's work in the social and behavioral sciences, much of 
which could have applications for our military. I look forward 
to hearing today about the behavioral science research 
currently being conducted by the Department of Defense (DOD) 
and how that research is being applied. This issue creates 
numerous opportunities for these two agencies, namely the 
Department of Defense and the National Science Foundation, to 
work together on the research areas recommended in the National 
Research Council (NRC) and U.S. Army Institute for the 
Behavioral and Social Sciences study, ``Human Behavior in a 
Military Context.''
    In the military context, advanced understanding of other 
cultures, teamwork in complex environments, technology-based 
training, nonverbal behavior, emotion and behavioral 
neurophysiology can make the difference between life and death. 
These factors affect more than the Army combat engineer on the 
ground in Iraq and her family here at home, or the Navy admiral 
and everyone under his command.
    They also affect all of our service-members, all the 
families that support them, all of us who they are defending, 
and yes, even those who threaten our freedom. Therefore, social 
and behavioral research is of crucial importance to this entire 
Nation and our own security as we move forward in an ever-
changing world filled not only with new technological 
achievements, but also with increasingly complicated human 
dimensions.
    I certainly want to thank our witnesses for being here this 
morning. I look forward to their testimony.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you.
    Now we will go to our witnesses' statements and then go to 
questions. I want to welcome our panel. I will introduce all of 
you first, and then go in order in terms of your testimony.
    First, we are joined by Dr. Andre Van Tilborg, Deputy Under 
Secretary of Defense for Science and Technology. Welcome.
    Colonel Martin Schweitzer, Commander, Fourth Brigade Combat 
Team, 82nd Airborne Division.
    Dr. Mark Weiss, Division Director for Behavioral and 
Cognitive Sciences at the National Science Foundation.
    And Dr. David Segal, Professor of Sociology and Director of 
the Center for Research on Military Organizations at the 
University of Maryland.
    Before you start, I just want to echo something that 
Congressman Baird had said, and that is the importance of joint 
hearings. What I am discovering in a lot of the areas in 
national security, particularly now when we are looking at 
warfare counterinsurgency dealing with all these issues, there 
is so much crossover from agency to agency.
    Traditionally, there has been an enormous amount of 
crossover in the Department of Defense, just within their 
different agencies. But now increasingly we are seeing it move 
over into areas that outside of the DOD. So finding ways for 
those different organizations to work together and be 
coordinated is enormously important and we certainly need to 
start here in Congress. So I appreciate that aspect of this 
hearing as well.
    With that, we will start with Dr. Van Tilborg. Please go 
ahead.

 STATEMENT OF DR. ANDRE VAN TILBORG, DEPUTY UNDER SECRETARY OF 
     DEFENSE, SCIENCE AND TECHNOLOGY, DEPARTMENT OF DEFENSE

    Dr. Van Tilborg. Chairman Smith, Chairman Baird, ranking 
members, and distinguished members of both subcommittee, thank 
you for this opportunity to discuss the role of the behavioral 
and social sciences in national security. My name is Andre Van 
Tilborg. I am the Deputy Under Secretary of Defense for Science 
and Technology.
    This morning, I will limit my remarks to only a few of the 
department's research efforts that specifically relate to 
unconventional warfare and the global war on terror (GWOT). 
First, a very short history lesson apropos to the theme of 
today's hearing. In roughly the year 512 B.C., a Chinese 
military strategist named Sun Tzu wrote a remarkably timeless 
handbook of pithy advice for warfighters called ``The Art of 
War.'' In this book Sun Tzu writes the following admonition: 
``Know your enemy.'' End of history lesson.
    Then 2500 years later, a National Academy of Sciences panel 
on human behavior in a military context reminds us that people 
are the heart of all military efforts. Similarly, the Defense 
Science Board (DSB) writes that DOD must gain deeper 
understanding of how individuals, groups, societies and nations 
behave. Just last week, the Secretary of Defense told the 
Association of American Universities that DOD must ``further 
its understanding of foreign countries and cultures with the 
help of the social sciences research community.''
    Today, our nation confronts the challenges of irregular 
warfare. The battlefields are often civilian neighborhoods 
where our forces come into personal contact with an 
indistinguishable mix of combatants, innocents and unknowns. 
Adequate cultural knowledge can make the difference between gun 
battles and non-kinetic conflict resolution and can be used to 
shape the optimal balance of combat power and diplomacy.
    This fiscal year, DOD's investment in social science 
research is roughly $150 million, of which about one-third is 
focused on the topic of today's hearing. That amount represents 
slightly more than one percent of DOD's science and technology 
(S&T) appropriations. Relevant social science research is 
sponsored broadly in the department, including the military 
services, Defense Advanced Research Projects Agency (DARPA), 
and the director of defense research and engineering (DDR&E).
    The DDR&E launched a vertically integrated research 
initiative budgeted at $10 million this year called Human 
Social Culture and Behavior Modeling, HSCB for short. HSCB is 
focused on developing the required science base and maturing 
technologies that support cultural understanding and 
forecasting across a range of mission areas and geographic 
regions.
    As an adjunct to the HSCB, the department is using the 
small business innovation research (SBIR) program to invest 
another $10 million this year on topics such as training 
soldiers to decode nonverbal cues in cross-cultural 
interactions, and secondary language retention in non-Western 
languages. In addition, the department's multi-disciplinary 
university research initiative has made two $1 million per year 
grant awards to universities for research in computational 
modeling of adversary attitudes and behavior.
    Also, the Army Research Institute funds research into how 
to think about culture in contrast to how to memorize facts 
about specific cultures. DARPA is conducting relevant research 
in a program called Integrated Crisis Early Warning Systems, 
and also makes considerable investments in foreign language 
translation technologies.
    The human terrain system that Colonel Schweitzer will 
discuss shortly represents only one of many ways in which the 
research results from these S&T investments can be employed.
    The department coordinates its social science research 
through many venues, including recent scientific conferences 
such as the first international conference on computational 
cultural dynamics sponsored by the Air Force Research Lab 
(AFRL), and the first international workshop on social 
computing, behavioral modeling, and prediction, with 
participation by DARPA, Office of Naval Research (ONR), AFRL, 
Army Research Office (ARO) and other agencies.
    Mr. Chairman, distinguished members, I ask that you recall 
from my opening testimony the recommendations of the DSB, the 
national academies, the yes, the military strategist Sun Tzu to 
learn as much as possible about the behavioral, social and 
cultural aspects of our adversaries and of the indigenous 
populations in which U.S. and coalition forces operate.
    DOD's S&T enterprise has both anticipated and listened to 
this advice. In conducting this research, it is crucial that 
DOD continue to respect the scientific integrity of the 
academic disciplines on which we depend.
    Thank you for this opportunity to address both 
subcommittees and for your continued support. Thank you.
    [The prepared statement of Dr. Van Tilborg can be found in 
the Appendix on page 40.]
    Mr. Smith. Thank you.
    We will now turn to Colonel Schweitzer. I do want to 
acknowledge his service. He has just returned 10 days ago, 
according to my notes, from a 15-month tour in Afghanistan. His 
unit was the first to deploy with the pilot human terrain team 
program. So we look forward to your insights from your 
experience in the field.
    Colonel Schweitzer.

    STATEMENT OF COL. MARTIN P. SCHWEITZER, COMMANDER, 4/82 
            AIRBORNE BRIGADE COMBAT TEAM, U.S. ARMY

    Colonel Schweitzer. Chairman Smith, Chairman Baird, ranking 
members of both subcommittees, thank you for this opportunity 
to testify on how mission-critical irregular warfare, 
nontraditional and non-kinetic enabling capabilities and 
technology are achieving desired effects in Afghanistan.
    Having just 10 days ago returned from a 15-month 
deployment, let me first thank the Congress and the Nation for 
your continued support as we persevere against a determined, 
adaptable enemy. The context of my comments today will be the 
Fourth Brigade Combat Team, 82nd Airborne Division's experience 
in Afghanistan, and specifically the significant non-kinetic 
effects the pilot human terrain system program has provided to 
our combat leaders at all levels within the brigade.
    Let me first explain what the human terrain system is. It 
is a capability to assist commanders and soldiers to better 
understand the human terrain they are surrounded by, and 
discern soft-power means of achieving desired effects. It is 
built about a five-to eight-person human terrain team, HTT, at 
the brigade combat team level comprised of social scientists 
and other trained military personnel. They use a mapping human 
terrain toolkit to assist with research and analysis and 
maintain a human terrain data repository concerning the local 
population, social groups, interests, beliefs, motivating 
factors, leaders, et cetera.
    HTTs do not merely serve as embedded cultural advisers for 
commanders, but they assist commanders at every level to 
maneuver formations within local communities in such a manner 
that reduces the threat to all parties involved. To help with 
this, there is a theater-specific reach-back research center at 
Fort Leavenworth, Kansas which provides 24/7 subject-matter 
expert support for deployed teams.
    So what did all this mean for our deployment? It meant by 
better understanding the human terrain, we reduced the number 
of kinetic operations that otherwise would have occurred. Not 
only did we reduce the risk to our soldiers, but we reduced the 
risk significantly to the communities that we operated within. 
Subsequently, we were able to assist linking the people of 
Afghanistan to their government at an incredibly accelerated 
rate.
    The bottom line is my headquarters is uniquely qualified to 
focus on the enemy as the center of gravity. However, today the 
people are the center or gravity, not the enemy. The brigade 
headquarters requires enablers to optimize their effectiveness. 
One of the enablers is this HTT capability which allows the 
headquarters to better focus its efforts on the correct center 
of gravity.
    Let me tell you what an HTT is not. The team is not an 
intelligence-gathering tool which is used to target 
individuals. My staff is uniquely organized to run the 
targeting process and link intelligence systems to time-
sensitive targeting. The HTT is sourced to its social scientist 
and is not qualified or trained to provide targeting support.
    Last year, the Army fielded an HTT to my unit as a proof of 
concept. The HTT was immediately value-added and became 
mission-critical. The team's impacts were exponentially 
powerful. It reduced our kinetic operations, assisted in 
developing more effective non-kinetic courses of action, 
improved the unit's overall situational awareness, improved 
consequence management, increased host-nation government 
support, improved the brigade's humanitarian assistance 
efforts, improved the village assessments, improved information 
operations capabilities, decreased enemy forces attacks, and 
decreased ordinary crime in our area of operation.
    Without the HTT filter on courses of action and the 
alternative maneuver tools they identified to create the exact 
same effect, we would have lost double, in my assessment, the 
lives both military and civilian. Using HTT capabilities, we 
reduced kinetic operations by 60 percent to 70 percent during 
our 15-month deployment.
    To illustrate the HTT's effectiveness, I would like to 
share a few vignettes. In the words of one of my company 
commanders, ``Without the HTT our actions would not have been 
as precise. If the teams weren't there, I would have cordoned-
off the village, gathered local elders and told them what we 
were doing. I would have told them to show me their personally-
owned weapons and if they didn't show us their weapons, we 
would have taken them. Because of the HTT, I understood my 
alternatives. If you could have one for every company 
commander, they would be a phenomenal asset.''
    According to one of my provisional reconstruction team 
commanders, ``Their expertise rapidly identified who to talk to 
in the village. We were just ricocheting around before they got 
there, talking to random people. The HTT saved me an enormous 
amount of time, 10 to 20 hours per village in terms of who to 
talk to. I would take those guys any day of the week.''
    And then finally, the HTT helped the 203rd Afghan National 
Army Corps in our brigade in developing non-kinetic courses of 
action during combat operations. To provide a specific example, 
in the Ghazni Province, the Taliban had regularly attacked the 
government of Afghanistan leaders coalition, Afghan National 
Army and Afghan National Police for over five years.
    Despite a very aggressive outreach to village elders, the 
HTT questioned the use of kinetic courses of action in the 
area, observing that the true power brokers in the areas were 
the mullahs and not the village elders. After redirecting our 
outreach effort to the mullahs, the brigade experienced a rapid 
and dramatic decrease in Taliban attacks to the point where 
this area is currently attack-free.
    The bottom line is, for five years we got nothing from the 
people of the Ghazni Province. After meeting with the mullahs, 
we had no more bullets for 28 days, captured 80 Afghan-born 
Taliban and 32 foreign fighters without a shot being fired. As 
a result of this operation last June, Ghazni Province today no 
longer harbors the shadow Taliban government.
    So what was the net effect? When we took over in early 
2007, only 19 of the 86 formal and informal districts supported 
the government. Today, we assess 72 of those same districts 
support their government. I absolutely attribute some of this 
change to the HTT.
    I could elaborate with more metrics and examples of HTT's 
success, but let me conclude. We learned that the population is 
the key to the center of gravity. The enemy is hiding among the 
people and we must understand the culture to win. However, it 
is more than just the culture. It is understanding their norms 
and values from an operational standpoint that creates a bridge 
between the people and their government which currently does 
not exist.
    The HTT's contribution to the brigades' ability to assess 
their operating environments, to routinely develop and consider 
non-lethal input to military planning, and to achieve greater 
operational success with less kinetic operations is invaluable.
    Thank you.
    [The prepared statement of Colonel Schweitzer can be found 
in the Appendix on page 69.]
    Mr. Smith. Thank you very much, colonel.
    Dr. Weiss.

  STATEMENT OF DR. MARK L. WEISS, DIVISION OF BEHAVIORAL AND 
   COGNITIVE SCIENCES, DIRECTORATE OF SOCIAL, BEHAVIORAL AND 
         ECONOMIC SCIENCES, NATIONAL SCIENCE FOUNDATION

    Dr. Weiss. Chairman Smith, Chairman Baird and distinguished 
members of the subcommittees, thank you for the opportunity to 
discuss the social, behavioral and economic, or SBE sciences, 
and their relationship to the military. The SBE sciences are 
concerned with human actions at every level, from an 
individual's brain to individual behavior, to the actions of 
social groups and organizations.
    From fighting the war on terrorism to understanding and 
overseeing an immense organization, SBE research can assist 
military policymakers in developing knowledge-based solutions. 
About a dozen different disciplines comprise the SBE sciences. 
Anthropologists study the workings of cultures and societies. 
Neuroscientists and psychologists probe the inner workings of 
the mind and brain. Linguists seek the neural basis of 
language. And economists, political scientists, sociologists, 
and geographers map the forces at work in today's societies.
    Collectively, these researchers study teambuilding, risk 
management, metrics for assessing U.S. competitiveness, 
disaster response, radicalization, the dynamics of conflict and 
much more. Federal support of basic SBE research is largely 
provided by NSF through grants to researchers, most of whom are 
located in U.S. academic institutions. NSF provides about 60 
percent of the Federal support for basic research in 
anthropology, social psychology and the social sciences. For 
some disciplines, NSF supplies more than 90 percent of the 
funding.
    We estimate that approximately 10 percent to 15 percent of 
this research might be of clear and immediate interest to the 
military. In fact, NSF supports significant levels of basic 
research in all six of the major research areas called for in 
the National Research Council's Human Behavior in Military 
Contexts report: intercultural competence, teams in complex 
environments, technology and training, nonverbal behavior, 
emotion, and behavioral neurophysiology. Each subject is 
relevant to the military in a variety of areas, including 
leadership, training, personnel, social interactions, and 
organizational structures.
    I will illustrate with three recent SBE awards from what I 
believe is a rich and diverse portfolio of SBE research 
relevant to the DOD mission. First, the University of Michigan 
researchers are studying human behavior motivated by ethical or 
religious beliefs. This research has far-reaching implications 
for military operations in regions where religious beliefs 
heavily influence local cultural and political systems.
    Second, the Learning in Informal and Formal Environments 
Center is an interdisciplinary collaboration led by scientists 
at the University of Washington and Stanford University. Its 
goal is to unlock the powers of human learning. This research 
will provide valuable insight to any organization that trains 
an ethnically diverse population of young adults such as the 
military.
    And third, researchers at the City University of New York 
are studying our ability to selectively attend to the relevant 
elements in our environment, while ignoring distracting 
information. This skill is of supreme importance in a military 
setting.
    Many NSF-supported research projects such as these could 
inform DOD efforts. With an increasing appreciation of the 
benefits that accrue to the military by SBE research, NSF and 
DOD might co-develop innovative solicitations. NSF can also 
provide expertise on the process of peer review and NSF has 
very strong ties to the academic community which could be 
leveraged to help develop new DOD research themes. NSF program 
managers might also provide the military with novel 
perspectives on the potential applications of SBE research.
    Mr. Chairman and members of the subcommittees, I hope that 
I have been able to articulate NSF's unique role in supporting 
fundamental social, behavioral and economic research, and the 
added value that NSF-supported research might provide to the 
DOD.
    Thank you for the opportunity to appear before you. I would 
be happy to respond to any questions.
    [The prepared statement of Dr. Weiss can be found in the 
Appendix on page 59.]
    Mr. Smith. Thank you very much.
    Dr. Segal.

  STATEMENT OF DR. DAVID R. SEGAL, PROFESSOR OF SOCIOLOGY AND 
    DIRECTOR, CENTER FOR RESEARCH ON MILITARY ORGANIZATION, 
              UNIVERSITY OF MARYLAND COLLEGE PARK

    Dr. Segal. Congressman Smith, Congressman Baird, esteemed 
members of the subcommittees, I am honored to have been invited 
to testify to you on the role of the social and behavioral 
sciences in national security. I have been asked to address 
four issues, and although I am a professor, I will try to be 
brief.
    First, I have been asked to provide an overview of the 
University of Maryland Center for Research on Military 
Organization. The Sociology Department at Maryland is unique in 
that it has continuously taught courses in military sociology 
and the sociology of war since World War II. I was not there at 
the time. Military sociology is a relatively small field and 
our program is the largest in the nation.
    In 1995, the research efforts of a number of faculty and 
graduate students were consolidated into the Center for 
Research on Military Organization. We were designated a center 
of excellence by the Army Research Institute for the Behavioral 
and Social Sciences, with the dual missions of conducting 
cutting-edge research and educating a successor generation of 
military sociologists.
    Our research program has four primary foci: diversity in 
the military, military families, military operations, and the 
intersection of the military and society. Our program is 
currently implemented by four faculty members, ten graduate 
students, and one post-doctoral research fellow.
    Since 1985, we have granted 18 Ph.D. degrees to students 
specializing in the study of the military, with 10 of them 
since the year 2000. Over the last decade, our research has 
been supported by over $4 million in extramural funding. More 
than 80 percent of it has come from the Army Research 
Institute. About 14 percent has come from the National Science 
Foundation. About six percent has come from industry. The 
remainder has come from private foundations.
    Second, I have been asked how research such as ours can 
achieve national security goals. Research in the social and 
behavioral sciences has afforded America's armed forces 
maximized soldier and unit performance since World War I when 
psychologists first developed tests to determine who should 
serve and in what jobs.
    In World War II, a generation of America's best 
sociologists and social psychologists were mobilized to support 
soldier morale and performance through survey research and 
training experiments. Today, as the domestic labor force and 
the international environment changes, the social and 
behavioral sciences can make continued contributions.
    Understanding the nature of culture and cultural 
differences, for example, can help soldiers function in a force 
that itself is increasingly culturally diverse, reflecting the 
changing ethnic and racial composition of society. It will help 
them participate in coalition operations where they share the 
battle space with allies who come from different cultural 
backgrounds. And it will help them function in unconventional 
military operations where the opponent is not a modern army 
whose soldiers wear uniforms that distinguish them both from 
friendly forces and from indigenous civilians, but rather 
irregular forces who blend in with the local population.
    In addition, the increasing importance of small units in 
these operations highlights the potential contributions of 
research on group processes such as cohesion and leadership, a 
research area in which the armed forces currently invests less 
heavily than they did in the years after the Korean War.
    Third, I was asked to identify current and emerging areas 
of research that contribute to the effectiveness of our 
national security apparatus. Many of the important areas, such 
as cohesion and leadership, have long been important, but 
continued research is necessary as research methods and 
concepts evolve. Others are identified in the 2008 National 
Research Council report on Human Behavior in Military Contexts, 
which has been referred to already.
    This volume focuses on the contributions of psychology, and 
particularly on cognitive psychology. Other social sciences and 
other fields of psychology also have contributions to make. At 
the individual level, research on the life course decisions of 
young adult Americans contributes both to an improved 
understanding of the decisions they make on choices of 
trajectory, whether they go into the military services, into 
civilian employment, or to universities, as well as how the 
Nation can best serve its veterans who have incurred personal 
cost through their contributions to our defense.
    At the institutional level, research on the ways in which 
American organizations and professions are being restructured 
can contribute to our understanding of the contemporary 
military profession, its organization, and its relation to 
society. In researching the military, new research tools such 
as computer and Web-based survey research may make data 
collection easier.
    Qualitative research approaches such as ethnographic and 
archival research can enrich the statistical pictures that our 
surveys provide. Application of recent theoretical approaches 
such as culture theory and social network theory can help us 
understand the structure of the military, its relationship to 
society, and the adversaries we are likely to have to face.
    Finally, I have been asked to comment on how we communicate 
our findings to DOD and the military services. Part of this is 
done through normal vehicles of science, meetings of 
professional associations that span the civilian and military 
boundaries, and peer-reviewed journals of these organizations. 
We also contribute to user-oriented scientific reports 
published by the armed forces. Perhaps most importantly, we 
have found the military to be enthusiastic consumers of our 
research and are frequently asked to serve as consultants to 
senior military leaders and to participate in military 
conferences and study groups.
    Thank you very much for your attention. I will be happy to 
expand on any of these points and answer any questions you 
might have.
    [The prepared statement of Dr. Segal can be found in the 
Appendix on page 52.]
    Mr. Smith. Thank you all very much.
    I think we will stick to the five-minute rule for 
everybody. We will probably have time to go around for a second 
round of questions if you don't get all of them answered in the 
first five minutes. I will start.
    The first question I am interested in, in focusing on 
Afghanistan and Iraq, but this can apply elsewhere, how do you 
gather the cultural information that Colonel Schweitzer talked 
about in terms of how useful it was? How do you go about 
figuring out what the rules are in a given Afghan village or 
Iraqi village? I have also been to the southern Philippines 
where we are doing some of this. How do you gather that 
information? How do you basically make sure that it is 
reliable?
    I don't know if Dr. Van Tilborg or Colonel Schweitzer, you 
can answer that.
    Colonel Schweitzer. Sir, I will just summarize if I could, 
and then expand it if there is a requirement. The human terrain 
teams, we embed them within the provincial reconstruction teams 
ahead of the operation that is going to be conducted. The 
provisional reconstruction teams by their very nature have 
incredible access to the population, but not trust, nor do they 
understand the human dimension that they are operating within. 
So using that access vehicle, the human terrain team then 
engages the community leaders, identifies who they are.
    Mr. Smith. And the human terrain team--sorry to interrupt--
is trained how? Are they a mix of military and civilian, or 
just one or the other?
    Colonel Schweitzer. They have some uniformed personnel 
assigned to the teams, but the teams are built around the folks 
from the social science community that bring the unique skill 
sets and the processes to do the human dimension analysis, to 
capture the norms, values, cultural challenges or ways that 
they operate on.
    Mr. Smith. And they will have some background in the 
specific culture where they are headed to, I assume?
    Colonel Schweitzer. Sir, they may, but I have to tell you 
we found out that that is not a pre-condition. The pre-
condition that we found out is the process that the 
anthropological community has been trained on their whole 
lives. That process is much more important than their 
respective regional area of experience.
    Mr. Smith. So knowing what to look for, whether you have 
seen it before or not.
    Colonel Schweitzer. Yes, sir. And it does help if they have 
experiences from that perspective. You know, if they are an 
Afghan expert, absolutely it is value-added. But we found that 
it is not a necessity. So they collect up through their 
engagement, through the constant impression.
    Look, here is the other piece. It is not done on one visit. 
Nothing is done on one visit. This is an Afghan timeline, not a 
Western watch. So to get the human terrain teams down there, to 
create the relationships, to get the dialogue going takes time. 
They have to capture the assessments and the analysis that they 
are making. And then they bring that back. They use their 
reach-back to that facility that I spoke of at Fort 
Leavenworth, Kansas to confirm or deny behaviors. And then they 
turn that into usable information for maneuver commanders so we 
can properly engage and operate within those communities, 
reducing friction.
    Mr. Smith. Thank you.
    In terms of the number of these teams that we have, now 
there are a number of different places other than Iraq and 
Afghanistan that this is applicable to, I understand, but just 
focusing on those two places, how many HTTs do we have deployed 
in either Afghanistan or Iraq?
    Colonel Schweitzer. Sir, there is a total of eight as of 
today. The second team just came in yesterday from Afghanistan. 
It is stationed in the northern portion of the regional 
command. And then there are six additional teams in Iraq is 
what my current understanding is.
    Mr. Smith. To really cover those areas, how many would we 
need?
    Colonel Schweitzer. Sir, that is a great question.
    Mr. Smith. Go ahead. Throw a big number at me. That is 
fine, but seriously.
    Colonel Schweitzer. My assessment is--and this is just 
mine--that every battalion, every O-5 command, needs a human 
terrain team assigned to it, and not just at game time. 
Deploying them is certainly an approach that enables that 
command to maneuver within the communities, but if we wanted to 
optimize the battalion's ability to make the people the center 
of gravity, to link people to their government, those human 
terrain teams need to be assigned to the unit months before its 
deployment, so you can train, develop the relationships, go 
through the training center, conduct a series of simulations, 
so you train just not the staffs and just not the commanders, 
but the young staff sergeant who is on the ground in 
Afghanistan engaging that mullah or tribal leader within a 
particular village.
    Mr. Smith. So we are talking dozens?
    Colonel Schweitzer. Sir, for example, I had 12 O-5 
commands, eight maneuver, and four PRTs. I would like a human 
terrain team in each of those O-5 commands. Additionally, I 
would like one at the brigade level, where I currently have 
one, and I use it at the brigade level for planning, and then 
we send it out to their subordinate formations for operational 
execution.
    Mr. Smith. And how many members are on each HTT?
    Colonel Schweitzer. Sir, it is stable right now. It is five 
to eight. It is based upon the problem and size density. Now, 
frankly it is still a pilot program. I think the ultimate 
manning has yet to be determined.
    Mr. Smith. Yes. Thank you very much.
    Mr. Baird.
    Mr. Baird. Absolutely fascinating. I want to echo the 
chair's thanks to all of you.
    The issue of training, I used the MRAP analogy earlier. We 
really rushed those into service, but we probably can't rush 
folks into this training. But what needs to happen? I saw Dr. 
Segal nodding his head earlier when Colonel Schweitzer was 
speaking in terms of getting folks integrated into the force 
early-on.
    I have two questions. What needs to happen in terms of 
training people to do this? It would seem to be some kind of a 
hybrid between social science training and understanding how 
the military works. If academic institutions or businesses or 
the military itself were to ramp-up to try to get folks, what 
needs to happen in that area?
    Dr. Segal, I will start with you and then any of the 
others.
    Dr. Segal. I will answer anecdotally, because it is the 
quickest way I know. We have students who are serving officers 
who come through our program and then go out in the field. One 
of our Ph.D.s, who by the way applied social network training 
to help capture Saddam Hussein, is now commanding a Stryker 
battalion getting ready to go back to Iraq. His sensitivity to 
what is important in culture is being transmitted to his 
company commanders and to his soldiers.
    Now, this is not a substitute for a human terrain team, but 
if you have to come in at some level, coming in at the 
battalion commander, company commander level, and assuming that 
you can teach some cultural sensitivity at those levels, 
including them in company and squad training down through the 
force, I think is a good start.
    Mr. Baird. Colonel Schweitzer.
    Colonel Schweitzer. Sir, we were discussing this in the 
last couple of days. Let me explain it in this manner if I can. 
When we built the Stryker brigade back in the late 1990's, I 
think we did that correctly. We did a series of simulations. We 
developed tactics techniques and procedures. We developed a 
playbook, if you will. And then we equipped and manned the 
force. And then we put it in a training environment and we 
trained it.
    With the human terrain teams, one could argue we did this a 
little bit ass-backwards. We had the maneuver formation and 
then we gave it a human terrain team and built an airplane 
while in flight. It is probably not the way we want to do 
business. So I would tell you let's default back to how we 
built the Stryker brigade, because what we are developing is a 
capability and a capacity that ultimately is going to be, I 
believe, in my opinion, an enduring requirement for military 
formations to be able to have that skill set in their tool bag 
to make the people the center of gravity so we can link 
government to their people.
    Mr. Baird. A dear friend of mine was former general 
commander of the 104th Timberwolf Division out of my district. 
He is of the belief that the reserves might be a good way to do 
this, and maybe break our reserves into--not break--but assign 
responsibilities for different regions of the world, and then 
pre-train people on this kind of skill in addition to their 
warfighting. Maybe this is not in addition. Maybe this is 
central to it. Maybe ``addition'' is the wrong term.
    Colonel Schweitzer. Sir, where it actually resides, that is 
certainly one solution. It is probably a bit beyond my purview, 
but I am convinced that the capability itself is one that is a 
necessity for new maneuver formations to have. Despite the 
conflicts that are going to be in the future, clearly this 
asymmetrical enemy within the population is going to be 
present. That is now a given. Since that doesn't look like it 
is going to change and we are going to go back to a symmetrical 
type of warfare, not having this tool in the kitbag, not being 
educated----
    And I will tell you, it cannot be limited to the officer 
corps. When I say ``commanders,'' I mean commands. So the squad 
leaders and above need to have these skill sets so when they 
are doing these engagements, they are properly equipped to link 
in with the human terrain teams, with the eventual 
reconstruction teams, so they can then create the most 
important effect, which is freedom.
    Mr. Baird. Well put. I want to thank you and all your 
forces for helping to bring that freedom to people.
    Dr. Van Tilborg, you mentioned earlier that it is not 
memorization of facts. It is a way of thinking. Could you 
expand on that?
    Dr. Van Tilborg. Yes. Actually, I want to follow up a 
little bit on what Colonel Schweitzer was saying here, the 
point being to train as many of the deploying troops as 
possible, not just certain individuals. I think what is 
critical here is to include language skills. Language is well 
known to be very important to an understanding of cultures.
    I think what we need to be able to do is employ to a much 
greater degree than we do currently the various forms of 
immersive training, sometimes referred to as ``games,'' but 
they are a lot more than games. They are much more serious than 
that. The department's S&T program has developed some rather 
important capabilities in this immersive training regime.
    We also need to draw more upon distance learning kinds of 
techniques so that a larger group that goes to be deployed has 
this kind of knowledge when they go. Thank you.
    Mr. Baird [presiding]. Thank you very much.
    We will go to Mr. Ellsworth and then Mr. Conaway will be 
after Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, gentlemen, for witnessing here today.
    Colonel, thank you for your service. I am glad you are back 
home.
    I was just kind of curious. We are pretty big on stats and 
numbers. When we are spending the people's money, they like to 
know this many MRAPs, this many bullets, this many bombs. Can 
you tell me anything about the measurement of success? I know, 
Colonel, you were saying that you had this much less violence. 
Could you tell me a little bit more how you measure?
    I know it is a pilot program, but how are you measuring the 
success that we can report back to our folks or to us?
    Colonel Schweitzer. Sure. I will first speak to the threat, 
which unfortunately is measured only in terms of kinetics, the 
number of bullets fired and the number of people injured, which 
really is probably a mistake to measure it only in that manner, 
so let me put two together.
    Prior to using the human terrain teams in Afghanistan, the 
previous five combined operations with the Afghan national army 
resulted with about 30 or 40 enemy killed, and my memory says 
about 15 to 20 civilians were also killed. I don't know if that 
is exactly right, but that is the ballpark.
    The five operations we did with the human terrain teams, 
that we spent just under 6 months, had a total of zero civilian 
casualties, zero enemy casualties, over 100 Taliban detained, 
over about 50 cumulative foreign fighters during those five 
operations. So that is one measure.
    Another measure, and I think it is the one that is more 
important, are the number of districts that are now in support 
of its government because of one of the human terrain teams' 
contributions of creating access. The human terrain teams 
helped us create access to population centers that we 
previously did not have access to. When I say ``we,'' I am not 
talking coalition. I am talking the Afghan-led effort which we 
were in support of.
    So what is the effect of that? Well, the effect of that is 
district and provincial governors being able to get down there 
to these communities, to be able to address and attend to their 
needs, and then provide for basic services, which I think is 
what government is all about.
    And then once they did that over a period of time, the 
people for the first time in 35 years in Afghanistan have an 
alternate choice, not of oppression, not of this constant fear 
of death or reprisal, but a government trying to take care of 
them. It wasn't perfect. It is not perfect today, but the 
numbers don't lie when we say 19 of 86 districts before we used 
the human terrain teams, and today we are 72.
    Do I think that the human terrain team is the only reason 
why? No. I think that there are a bunch of things that you guys 
have sourced, and we are incredibly thankful for what you all 
have done for us, everything from Joint Improvised Explosive 
Device Defeat Organization (JIEDDO) to the law enforcement 
personnel, to the Commander's Emergency Response Plan (CERP) 
money, to all those things that you are giving unit commanders 
on the ground. But the human terrain teams played a critical 
role in creating that access.
    Mr. Ellsworth. Thank you. What about losses on our side in 
these HTTs, the civilian members, non-soldiers? Have we had 
casualties?
    Colonel Schweitzer. Sir, we have not had casualties to 
date, but when we talk about the number of casualties on the 
uniformed side, when I said about the five operations that we 
did, I left out the coalition casualties. There were no 
coalition casualties in those five operations that spanned just 
under six months. So I think it is a contributing factor.
    I also have to acknowledge the development and performance 
of the Afghan government. It is a connected entity. The 
government is able to develop because it is being provided 
daily opportunities to provide for their people. It is being 
able to provide those daily opportunities because of the access 
that is there. The access that is there has been created or 
contributed to the creation of the human terrain teams.
    Mr. Ellsworth. What about the acceptance from the troops, 
the uniformed people? I know that in my former life, when I 
would introduce something new to my officers, sometimes there 
was resistance. Are you meeting that? What is your reaction?
    Colonel Schweitzer. No. This is my sixth or seventh 
deployment. I have been deploying since 1989. So when the enemy 
was the center of gravity, this capability was not required. 
Now that the people are the center of gravity, I will just use 
the quotes that I use to my subordinate commanders. It is a 
desired commodity capability that we need so we can make the 
people the center of gravity.
    I will tell you that no one likes to get shot at, 
particularly in Afghanistan. It is an unpopular insurgency. The 
death of any, whether it is enemy Taliban or an innocent, is a 
step back. So as we can continue to develop tools that enable 
us to engage communities and settle the disputes through 
governance, it is a win for everyone.
    Mr. Ellsworth. Thank you.
    Mr. Smith [presiding]. Thank you very much.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    I apologize if this question re-plows ground you guys have 
already plowed, but ``mapping human terrain'' is not a term 
that I intuitively understand what you are talking about. Could 
you go through that a little bit and explain exactly what the 
method is?
    Colonel Schweitzer. Sir, let me just topically answer that, 
because what you are asking me is what is this toolbox. Like 
any mechanic, I understand the toolbox and I can use the tools. 
I don't know much more beyond that, quite frankly. But simply 
stated, the MAP HT kit is a piece of hardware. It is a computer 
laptop. It is used to produce the products and decision-making 
tools that enable a subordinate commander to figure out how he 
best can conduct maneuvers inside a respective community.
    It is also used as a repository, as a hand-off. So as we do 
the release-in-place between the brigades, the battalions, the 
companies, the provincial reconstruction teams, and the human 
terrain teams themselves, that they have a good, constant hand-
off of material and data and information that gets handed-off. 
So it is really their hardware and software system from my view 
that provides me those necessary tools that we can then go out 
and give to our subordinate commanders and sergeants who engage 
with these communities. Anything beyond that, sir, it is beyond 
my expertise.
    Mr. Conaway. Can you give me an example of what a tool is? 
How do you gather the data that is in the toolkit?
    Colonel Schweitzer. Okay, sir. We did cover that, so I will 
just summarize it if I can.
    Mr. Conaway. Thank you.
    Colonel Schweitzer. The human terrain teams normally get 
embedded inside the provincial reconstruction teams.
    Mr. Conaway. I understand that, but you said it is a tool. 
What is it that they have gathered? The number of brown-haired 
folks or--?
    Colonel Schweitzer. No, no, sir. Let me give you an example 
and see if that answers it. Sir, the Pashtunwali has 15 tenets. 
These are basically the values and norms that the Pashtun 
tribe, which is the largest tribe in Afghanistan, lives under. 
Those 16 tenets you would think would be interpreted in just 
one manner. Well, the Suleiman Khel tribe, as an example, is 
made up of 26 sub-tribes. Those 26 sub-tribes each view the 16 
tenets of Pashtunwali a bit differently.
    So the human terrain teams get down there inside these 
communities, get their understanding of how they view the 16 
tenets of Pashtunwali, give that back to us. We then 
incorporate that into our rehearsals so we can properly 
maneuver within their communities. So we are engaging the 
tribal leader of this village, the mullah of that district. So 
it enables us to better maneuver, reduce the friction, and 
reduce the risk to everyone involved.
    And here is the other thing, sir, that we have found quite 
interesting. The Afghan national army folks are made up across 
all of Afghanistan. So their understanding of tribal values and 
tribal issues are not much greater than some of ours. So these 
products are used throughout the entire combined force so we 
can reduce the number of kinetic or potential kinetic 
activities that otherwise may have occurred.
    Mr. Conaway. I have been to Fort Riley to see the training 
teams there, that training regimen. How long does it take to 
form up an HTT and deploy that team?
    Colonel Schweitzer. Sir, I don't know that answer because 
my experience was when I was at the Joint Readiness Training 
Center at Fort Polk, Louisiana, I started asking for a 
psychologist in that community because I was ignorant. That is 
who I needed to help me understand the human terrain. A guy by 
the name of Steve Fondacarrow showed up out of nowhere and 
said, what you need are anthropologists or people from the 
social science community.
    So on the third day of my rotation at the Joint Readiness 
Training Center two months before I deployed, five American 
heroes showed up and plugged in and helped us grow this 
capability. So I can tell you that we didn't do it right in 
terms of how to form, man it, train it, and embed it. The 
formation that just replaced me linked in with their human 
terrain team prior to their deployment to their readiness 
exercise and stayed with them and is with them today. That 
certainly feels, sounds, and smells like that is more the right 
link-up.
    Mr. Conaway. Are we using these tools in Iraq as well, or 
just in Afghanistan?
    Colonel Schweitzer. Sir, we are using the tools in Iraq, 
but that is really about the extent of my knowledge of what is 
occurring in Iraq. I am fresh back from Afghanistan.
    Mr. Conaway. Well, thank you for your service.
    I yield back. Thank you.
    Mr. Smith. Thank you.
    Ms. Gillibrand.
    I am sorry. I apologize. Mr. Lipinski was here first. I am 
sorry. We have a dual committee here. I apologize. I looked at 
the wrong name on the list. We will get to you soon.
    Go ahead.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to thank both Chairman Smith and Chairman Baird for 
holding this hearing today.
    I really want to go in a little bit different direction 
here. As the hearing charter said, we want to explore 
opportunities for partnerships between the DOD and NSF for this 
type of research. So I want to go down that road.
    Last year, there was a bit of a skirmish over social 
science research funding with NSF. Chairman Baird led the way 
and I joined with him to help protect that funding. I am a 
political scientist, so I have an interest in that. But what I 
really want to ask is, I want to start with Dr. Van Tilborg, 
and then go to Dr. Segal, and then I want to hear what Dr. 
Weiss has to say about this.
    Dr. Segal is in academe. Dr. Van Tilborg has been there. 
What can and what do you think the NSF should be doing in 
regard to any partnership with the DOD? I want to also get into 
how much responsibility do you think NSF has for doing things 
like this. Should the NSF be purposefully focused on research 
that could help in this area? Or should we be focusing the NSF 
so much in a particular direction?
    I have started out with a lot of questions. Let me see what 
you have to say. But is there value to research that is not 
directly related, say, to something related to the military 
that we have here, but may in some way tangentially help train 
somebody, a researcher who then can later do work in this area? 
So all the questions are on the value of the NSF research. That 
is why I want to get your ideas on that.
    So let's start with Dr. Van Tilborg.
    Dr. Van Tilborg. Congressman, thank you for your questions.
    Yes, I am very much in favor of the kind of unfettered 
basic science research that the National Science Foundation 
conducts. I think there are often situations where without any 
kind of knowledge as to how that new understanding from their 
research will be used, that eventually our nation benefits 
greatly from that kind of knowledge.
    We do in our DOD basic science so-called six-one research 
program have a lot of grassroots interactions with the National 
Science Foundation staff. I think it is actually quite common 
that the principal investigators in the universities who 
primarily conduct the National Science Foundation's research 
and our six-one research tend to be if not one and the same 
individuals, then sitting down the hallway from those people 
who are supported by the other agency. Of course, they run 
across each other a lot in the professional societies and 
world.
    My personal view is that, yes, the National Science 
Foundation does in fact have as part of its charter to be 
concerned about the national security. That is not foreign to 
their responsibility. But it is important for them to maintain 
the relationship that they have with the science community. 
This is a very long-term relationship that has been 
established. I think we on the Department of Defense side have 
to develop the techniques that can draw upon NSF-funded 
research effectively for our purposes without interfering with 
their ability to work honestly and openly with their research 
communities.
    Mr. Lipinski. Dr. Segal.
    Dr. Segal. I agree with Dr. Van Tilborg. I think that the 
mission of NSF to sponsor unfettered research is paramount. At 
the same time, I think it is important for NSF from the point 
of view of the country and the academic community to recognize 
a responsibility to support research generally in the public 
interest. I think national security is in the public interest.
    In terms of mobilizing human capital in support of national 
security needs, quite frankly I think that NSF brings to the 
funding of social science research a level of credibility and 
legitimacy that in the current environment, and probably since 
the Vietnam War, DOD has not had, for better or for worse, 
deserved or undeserved.
    There are indeed a number of social scientists who do 
research that would be relevant to national security who would 
not go to DOD for funding, and others who probably would, but 
do not have the same access to Department of Defense-Veterans 
Affair's (DOD-VA's) broad agency announcements that they do to 
information on what funding is available through NSF. So I 
believe that NSF funding in this area would increase the range 
of social science talent available to be brought to bear on 
national security needs.
    Mr. Smith. I am sorry. We will have to perhaps come back to 
this if we have more time.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. Colonel Schweitzer, 
it is good to see you back on this side of the world. I 
appreciate your hospitality when we were out there a few months 
ago. It is good to see you here.
    I apologize because I wasn't here earlier. Like Mr. 
Conaway, I don't want to re-plow old terrain for you as I am 
catching up. So I would just like, if I could, Colonel, to 
address a question and thought to you. I know that part of the 
issue that you and others are dealing with over there are the 
Afghani government leaders themselves. I know that there are a 
couple of examples. Governor Jemal for example is top-flight, 
first-rate, but some others not so.
    Does this tool--does the system, the HTT and the people who 
are involved in that--does that help you identify the 
capabilities, the qualities, if I can use that word, of the 
Afghani leaders that you are dealing with or that others would 
deal with?
    Colonel Schweitzer. Sir, we do not use it in that manner. 
We used it truly to define the human terrain and the human 
dimension that we are operating within. We are focusing it on 
the communities, the tribal challenges, the tribal norms, how 
those sub-tribes did and did not work together, how they worked 
or did not work together with adjacent tribes. So we focused it 
truly on being able to paint the appropriate human landscape so 
we could operate within.
    Having said that, most of the governors are not from the 
provinces that they operate within. So these output products 
were incredibly beneficial for them as well so they could 
create proper access. We found it really unique that as a 
matter of fact the Paktia governor was from a different tribe, 
and he had great difficulty engaging his tribal leaders at the 
lower district and the village level. He was using his own 
procedures and techniques that he had used in the tribe that he 
came from.
    Well, we were coaching him collectively on, hey look, it 
ain't working what you are doing. The products that came out 
from the human terrain team were those products that we used to 
help him understand that community that he was trying to engage 
and discuss and deal with. That is how we applied it.
    Mr. Kline. So that tool is not only helpful to you and your 
soldiers for understanding the human terrain that they are 
navigating through, but you are actually able to turn it around 
and help an Afghani leader use it as well. But it doesn't 
address the problem and couldn't of just corruption, low 
character, or something like that that might be in place.
    Colonel Schweitzer. You can't help but get back information 
from the village leaders, the tribal leaders, the mullahs, when 
corruption is out there, when they think governance is not 
working on behalf of them. That does come. It is an output 
product. It is not the primary product, but it certainly is 
additional information that comes back.
    So you do get this kaleidoscope of responses and data 
points to be able to put into the kitbag to figure out, okay, 
how do we reduce this friction? How do we create this access? 
How do we then coach the governors, the police chiefs, the army 
chiefs, to have better behavior or proper behavior as expected 
by that community and give them ultimate options? At first 
there is just one option--the same thing it does for us.
    So what I alluded to earlier was that these teams, the 
products that they are creating, they benefited the Afghan 
national security forces as much, if not more, than the 
coalition forces. To our moms and dads that are out there, that 
are providing their sons and daughters to go into uniform, they 
can rest assured that is saving lives.
    In terms of the mission, it has a significant impact with 
developing governance within the Afghan structure, of enhancing 
economic development, as well as developing the Afghan national 
security forces.
    Mr. Kline. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you.
    Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Thank you all for your testimony and your work and your 
service. It really sounds like you have developed a program 
that is extraordinarily value-added.
    I want to ask Colonel Schweitzer, in your prepared remarks 
and through your stated remarks, you went through all the 
advantages that you have seen both on the ground with our own 
troops, with reducing violence, with working better with the 
local governments. I just want a little more context about how 
are our men and women on the ground who are doing this work 
perceived.
    Colonel Schweitzer. You mean the human terrain teams, how 
they are perceived? I guess the best way to judge that is the 
access that they are and are not granted. Do I think that every 
engagement that the human terrain teams have had has been one 
of success? I am sure that is not the case. I am sure that 
there have been times that either it has stumbled or that a 
community has just not been willing to accept it because at the 
end of the day, it still is a foreigner on the other end of the 
discussion.
    So there are going to be those challenges that are out 
there. But what I have found is that through time, if we don't 
use a Western watch that I alluded to earlier, and if we allow 
the Afghan condition set to be achieved, that that access has 
never not been achieved. That is just due to constant 
engagement, consistent performance, constant behavior on both 
sides of the equation, so they can develop enough of a trust 
where they are willing to open up and discuss.
    But simply stated, we have never--I cannot recall a single 
incidence where they did not gain access eventually. But I can 
tell you numerous times where we didn't gain it immediately. 
Again, that is because we did default to our Western watch that 
we quickly threw away so we could focus on getting the right 
conditions set to establish the necessary trust that allowed 
the communication flow.
    Mrs. Gillibrand. Have you considered, or is there already 
coordination with United States Agency for International 
Development (USAID), with Central Intelligence Agency (CIA), 
with the State Department? It seems to me that if you look at 
other areas where we are not combat-focused, but more 
population-focused and intelligence-gathering-focused, that 
this kind of information would be extremely valuable in other 
applications of the U.S. government's role.
    I am thinking of different applications, but looking at 
Pakistan for example. When I was there last summer, we have 
certain missions there--intelligence missions, USAID missions. 
There are enormous amounts of efforts that go on there. I am 
wondering, is this something that you would like to see 
expanded that it could be used in coordination with the other 
agencies so that everyone has the benefit of this very valuable 
cultural and ethnic information that could inform their 
operations and their missions to be more successful?
    Colonel Schweitzer. Ma'am, that is probably a bit outside 
of my own personal scope, but I am pretty confident that this 
is not mutually exclusive to what we did in the last 15 months. 
I clearly can see the benefits as it could apply to different 
organizations and agencies to enable them to properly engage 
with communities.
    That is probably about as far as I can go with it, not 
because I don't want to go more, I am just not privy enough to 
the other agencies' missions. I do not believe that it is 
mutually exclusive to just what we were doing.
    Mrs. Gillibrand. Do any of the other panelists have any 
view on that? Do you have any knowledge of those subjects? 
Okay.
    Let me ask Dr. Van Tilborg something. This training 
obviously is much more than just the do's and don'ts of a given 
society. I am thinking that we have sensitivity training that 
we give our troops before they go into combat. Often they are 
deployed to Iraq, then Afghanistan, then some other location. 
Is this something that we can expand so that all of the men and 
women that we train for missions, particularly in Iraq and 
Afghanistan, will have the benefit of this kind of in-depth 
cultural knowledge?
    Dr. Van Tilborg. Thank you for the question.
    I think it is up to our actual men and women in uniform to 
decide precisely what they need at each echelon level in the 
operating forces. But I think that probably every man and woman 
who goes over does need to have some sort of basic 
understanding of these kinds of cultural, social, religious, 
economic, political, et cetera, kinds of issues.
    I think that that level of training is quickly dawning on 
the military, the need for doing that. I think the Marine Corps 
probably has picked up on this the quickest. My understanding 
is their facility down at Quantico called the Center for 
Advanced Operational Culture Learning (CAOCL)--I don't remember 
what it stands for, but the ``C'' in it is for ``cultural'' 
learning--is running lots of young Marines through so that they 
have an understanding that is meaningful.
    We are not talking here about a travelers tourist 
guidebook. This is information that needs to be of a different 
nature. Not everyone needs the same level of training. There 
are people who have special jobs that require very deep 
understanding, including language training, and others who can 
do a good job in what they are assigned with a lesser degree of 
training.
    Mr. Smith. Thank you.
    Mr. McIntyre is next.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being with us today.
    Colonel, as one of those who represents Fort Bragg, let me 
state to you how proud we are of your service and your 
commitment and all that you do with the 82nd Airborne.
    I just simply wanted to ask, given the testimony and the 
questions that have already been asked, the concern of how what 
you were doing may tie into the concern we hear over and over 
with regard to progress both in Afghanistan and, for that 
matter, in Iraq as well, about the situation involving the 
local police.
    I notice in your testimony on page five at the top you 
state that the true power brokers in the area were the mullahs, 
not the village elders, who were mostly Taliban supporters in a 
certain situation you were describing there. Later in your next 
paragraph, you talk about the net effect of moving from 19 of 
86 formal districts that supported the government, and today 
you assess 72 of those districts as supporting the government. 
You attribute that change, or at least some of that change, to 
HTT.
    Is this an area that can or is working with regard to 
helping an understanding and a respect and a need for the work 
of the local police to be successful? When I was in Afghanistan 
and talked to Dan McNeil, our friend who as you know has served 
from Fort Bragg for many years, that continued to be a 
concern--the situation with the local police. We have also 
heard that from other panels that have some before us.
    Colonel Schweitzer. Sir, I think one of the overarching 
problems is corruption. So whether that is corruption within 
the Afghan national police or the governmental structure, no 
matter where it is, it is damaging because once you create a 
separation from the enemy, and you then get government to come 
down there to their community--government being represented by 
police, army, actual government employees--who then skim off 
the top or do not provide for the community, you then cause 
that community to say forget government, I am going to turn 
back toward the Taliban.
    The human terrain teams help us at the front end of this 
piece with gaining the appropriate access and providing us 
alternate options and courses of action to be able to conduct 
appropriate engagements so we can, (A), link in those security 
forces or those government representatives with their people. 
If the government structure or the government representatives 
then are corrupt, that is a significant step back. That has 
happened.
    Frankly, in the remaining 14 districts, four of them are 
going to real hard nuts to crack because that happened on a 
continual basis. We had a pretty good understanding of the 
human terrain, a pretty good understanding of the human 
dimension, the cultural expectations. And then we had governors 
or sub-district governors make poor choices that resulted in 
those communities hardening against their government. So that 
is a different part of the problem, but in my opinion it is one 
of the underpinnings that we have to continually work at.
    Again, though, the human terrain teams enable us to get 
access and re-get access. And here is the other thing, sir, 
that was helpful, is when we did get these communities that 
were troubled, the human terrain teams helped us understand 
that human dimension even better because that is the last place 
that we need to go shoot, the last place.
    When you have that kind of a problem, that kind of an 
attitudinal opposition to the government structure, going in 
there with force in Afghanistan is the wrong answer. You have 
to go in there with a better idea. You have to go in there with 
better performance. And you have to be able to access those 
communities, those villages, those tribal leaders, and show 
them that their government can and will provide for them in a 
manner that is based on integrity. So they have been critical 
with us getting into the hard places.
    Mr. McIntyre. Thank you for the excellent answer. If I can 
just clarify, so in places like those 14 remaining districts 
that you said are going to be pretty hard situations to deal 
with, is there a concentrated effort to coordinate the HTT with 
those that can influence to try to crack those hard nuts, as 
you said?
    Colonel Schweitzer. Yes, sir. Here is the other dynamic 
that is occurring in Afghanistan. I subordinated my brigade to 
the 203rd Corps commander, Major General Khaliq. He has built a 
campaign plan. I just hearken back to five years ago when they 
said they couldn't have a government because they didn't have 
the human capital. They couldn't have an army because they 
didn't have the human capital.
    And now here today, four and a half years later, Major 
General Khaliq is developing a campaign plan that we are in 
phase two of, of cleaning out the provinces that he is 
responsible for and getting government down there to their 
people. Sir, he is the one who has set the table. So these 
products that came from the human terrain team went into their 
effects-cell because they have a mirrored effect-sell that our 
headquarters has, that went into their campaign planning. So 
they have a strategy to get out to all 14 districts. Their next 
of operations are occurring today, and started about a week ago 
in one of those real hardened areas.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Thornberry.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman.
    Dr. Van Tilborg, I am wondering if we put the same rigor in 
behavioral and social science research as we put into other 
areas of research, with things like metrics and what-not. Part 
of the reason I wonder is that I recently read a book by a 
psychologist who tried to explore why people turn to terrorism. 
And then there has been a considerable amount of controversy 
about that book regarding his methods and the conclusions that 
he reaches based on those methods.
    It seems to me just inherently more difficult to have 
objective metrics and other standards for this area of research 
as physics or chemistry or something. How does that shake out?
    Dr. Van Tilborg. Congressman, I would certainly have to 
agree with you, but of course I am not a researcher in this 
domain. Professor Segal might be able to say that the metrics 
are in fact extremely rigorous. In my experience, it kind of 
depends on the specific let's say social science that you are 
examining. If you are in a situation where you can examine, 
say, the reaction of an individual who is now tapping with a 
pen and you are able to make numerical measurements regarding 
that individual's reactions or behavior, I think you wind up 
with the kinds of traditional metrics that we use in other 
branches of science.
    In other areas, for example also in language training and 
language understanding, I believe that you can do relatively 
conventional kinds of testing in simulation-types of 
environments. But then there are other areas where, I agree 
with you, it is very difficult. I think fundamentally it is 
difficult because it is not that easy to run controlled 
experiments in some aspects of the social sciences.
    For example, in the case of the human terrain teams that 
Colonel Schweitzer has been explaining so well, you can't 
really do the controlled experiment of a particular scenario 
with a HTT, and then run that same scenario without the human 
terrain team and be able to say, well, you see in one example 
we had nine casualties, and in the other we had three, so that 
is the difference by having the human terrain system.
    I believe that is probably a fundamental difficulty in this 
business. However, I would say that in a sense there is no less 
rigor in this field. They get as much rigor out of it as they 
can, in my view.
    Mr. Thornberry. Well, a fair point. It just strikes me that 
when you are talking about people's motivations and policy is 
based upon an assumption of those motivations, it is somewhat 
murky territory.
    Dr. Segal, I would be interested in your comments on this. 
Let me throw out one other aspect of it. I was recently on a 
commission that recommended that our nation take greater 
advantage of immigrant and expatriate communities in the United 
States to help aid our understanding in other nations, other 
cultures, and especially other motivations, which is not so 
easy to study.
    Are we doing that? Do you agree we need to do that? How 
would we? And then in terms of the research that goes on, how 
do we tell whether it is good enough to make a policy decision 
on?
    Dr. Segal. Thank you for those questions.
    I will certainly agree it is very difficult to be rigorous 
in the social sciences I would argue because the systems that 
we study are so complex. I tell my colleagues at the University 
of Maryland that God must have loved the physicists; He gave 
them all the simple questions. But when you start looking at 
complex individuals in complex social systems, and you have a 
very, very difficult task.
    So I would say that for that element of the social sciences 
that is in fact oriented toward measurement and rigor, those of 
us who are influenced by positivism, we do the best we can. But 
as Dr. Van Tilborg said, we are dealing with situations where 
you can't bring things into a laboratory and hold variables 
constant. You have to figure out what to do.
    It is kind of like astronomers studying the universe. It is 
out there, but we can't bring it into the lab. We can still 
measure elements of it. We are not sure we know everything 
about it that we need to know. We are not sure we know what we 
need to measure, but we try. The experimental model doesn't 
fit.
    In terms of whether we should take advantage of immigrant 
communities to learn from them, I have argued repeatedly--my 
business is primarily military manpower--and I have argued that 
in the military, we take less advantage of immigrants in the 
country than we could in terms of recruitment, which would help 
not only in terms of numbers, but in terms of a way of building 
cultural sensitivity and recognition of cultural diversity into 
the force.
    I think on a national level, we could do a better job of 
that. We have historically been a nation of immigrants. We have 
enriched our country because of the human capital brought in 
from other countries. There is a kind of pendulum swing against 
that right now in the country, I think, and it is unfortunate.
    Mr. Thornberry. Could I ask, Dr. Weiss, do you have any 
comments on this--on how you know whether the science is good 
enough?
    Dr. Weiss. In regards to the rigor of science, yes, I would 
certainly agree with my colleagues here that studying human 
behavior can be very problematic, much more complicated than 
studying the movement of atoms at times. However, I would also 
stress that we are now seeing the incorporation of new 
technologies and new ways of thinking about human behavior that 
are allowing us to provide added levels of rigor that improve 
our understanding of basic human behavior.
    Just as one quick for instance, the use of functional 
magnetic resonance imaging to really get a literal picture of 
what is going on inside a human skull as somebody is 
undertaking a particular task. So we are getting more and more 
adept.
    Mr. Thornberry. Thank you.
    Thank you all.
    Mr. Smith. Thank you very much.
    I just had a couple more questions. I want to follow up a 
little bit on that last question as far as the rigor of these 
particular social sciences. First of all, in terms of Colonel 
Schweitzer's experiences, when you go in to specific cultures, 
you can get reasonably specific answers in terms of the norms 
and mores of that culture that are very helpful. It is not a 
guarantee. I am sure not every Afghan in a given village 
adheres strictly to those cultures and mores, but it is 
probably a pretty high percentage.
    My second comment is that really what you are dealing with 
here is percentages. As understand a broader population in a 
given area, you can say 80 percent of the time we think this 
person will react that way, and they probably will. That is 
different than in physics where 100 percent of the time when I 
drop the rock, it is going to hit the ground, but that is still 
incredibly valuable.
    I will throw a basketball analogy out there. If you are 
picking who to put on the line, you pick the guy who shoots 80 
percent instead of the guy who shoots 50 percent. It is not a 
guarantee. Maybe the guy who shoots 50 percent happens to hit 
those two free throws and the other guy doesn't, but it 
significantly ups your odds of success. That is why I think 
these social sciences are very, very valuable.
    I did want to give Dr. Weiss the opportunity to answer the 
question that Mr. Lipinski raised earlier about how the 
National Science Foundation and the broader scientific 
community reacts to sort of, if you will--I will be a little 
bit more blunt than Mr. Lipinski--being dragged into the 
military world, and if there is any push-back on that, or if 
you see that as an incredibly valuable part of what you are 
doing, or is there more controversy within either NSF or the 
broader scientific community.
    Dr. Weiss. Well, within NSF, I do not see a sense of being 
dragged into anything. NSF, as has been mentioned, supports 
basic scientific research. What we have found over time is that 
we receive unsolicited proposals to conduct research, some of 
which has clear and obvious applicability to military settings, 
as I alluded to in my oral presentation.
    Other research that we fund does not necessarily have any 
obvious application, but as the research develops and as the 
implications of the research evolve, what we find is that much 
of the research that for instance might have to do with the way 
that organizations are structured, may have ultimately very 
clear applications in a military setting.
    We have on occasion been involved in collaborative work 
with the Department of Defense. For instance, last year we 
collaborated with them on a solicitation, the topic of which 
was the detection of explosive threats, that was initially 
going to be targeted at the math and physics communities, but 
indeed the social, behavioral, economic sciences became part of 
that, and indeed several awards were made which deal with 
aspects of the psychology detecting mal-intent.
    Mr. Smith. Who is going to plant the bomb? I mean, if you 
look into a community, it is part of the counter-IED approach. 
Instead of just focusing on the explosives, focus on the 
people, and if you find them, it is as effective as finding the 
bomb.
    Dr. Weiss. Absolutely. Technology is wonderful or can be, 
but the fact is that technology is used within a human context 
and you have to understand the human context as well.
    Mr. Smith. So just one more question for Colonel 
Schweitzer. That was on the role of our special operators that 
is in the jurisdiction of our subcommittee and we spend a lot 
of time focusing on it. They have some training in this area. 
Certainly in irregular warfare and counterinsurgency, part of 
it is cultural awareness. They have training within that.
    I was wondering how their efforts, since they are such a 
large presence in Afghanistan, and their sort of cultural 
training, meshes with the HTTs. How short are they of what the 
HTTs have and how do the two work together?
    Colonel Schweitzer. Yes, sir. That is a great question, 
because I think that may be some of the confusion. It is not 
the same. The cultural training that our special forces get is 
similar to the same training that the conventional forces get 
with respect to cultural understanding and being able to grow 
the capacity of the individual soldier, his understanding of 
the cultures, the norms, and the communities and their 
concerns, and what the friction points are.
    What the human terrain teams do is they create access. What 
the human terrain teams do is they help us operationalize their 
values and norms so we can properly maneuver within them. I 
would argue, and I can't speak for the special operations 
community, but as they did operations in coordination with us, 
they absolutely leaned and relied on the products that the 
human terrain team produced.
    Mr. Smith. Right. Thank you. That is all I have.
    Mr. Conaway.
    Mr. Conaway. If I might, Dr. Weiss, do you study the 
transition that ultimately winds up? We have very poor 
phraseology in terms of describing these folks, but describe 
the violent radical jihadist, the mindset that leads a person 
to strap something on themselves and walk into this room and 
blow themselves up. That person didn't start life with that 
being their goal, I don't think. Maybe they did.
    Do you look at, or is there someone at NSF as a part of 
this cognitive looking at that transition and how those folks 
go from--again poor phraseology--moderates to fundamentalists 
to radical jihadists? How does that transition occur? If it 
occurs in poverty circumstances, like in Palestine where there 
is no hope, no future, I can get my head around that. But 
looking at what occurred in England and other places where 
folks who were raised in a society where they were educated and 
had opportunities and had futures, and even doctors involved in 
this conduct, do you guys look at that issue?
    Dr. Weiss. Yes, we do. In fact, we have supported a number 
of researchers who are interested in exactly the sort of 
question that you are asking. To jump back to the point I was 
making earlier, sometimes the insights that we gain into the 
question that you are asking come from a source that you might 
not have imagined to begin with.
    For instance, there are researchers at the University of 
Michigan who are interested in exactly the question you are 
asking, and are asking it in terms of what values within a 
society are, (A), sacred and therefore not negotiable; and what 
happens when we try to negotiate what they consider to be a 
sacred value. In fact, that results in increased 
radicalization.
    Now, the point in part is that that rose out of basic 
research that actually was initiated in Mexico talking to 
farmers about their view of their local ecology. From that 
basic research, these researchers were able to transition and 
apply their knowledge in a whole new setting, the one that you 
are asking about.
    We have supported, funded research by other investigators 
looking at the question of whether it is poverty that breeds 
radicalization. Not intuitively, the answer is it seems not. In 
fact, as you mentioned, it is often individuals who may have at 
one point been at a poverty level, but have risen, and now have 
the freedom to act further on their radical ideas. So to some 
degree, it is not the poverty itself. It is the opening up, the 
availability of resources that liberates them to undertake 
these actions.
    Mr. Conaway. As that research progresses, will we reach a 
point where we can apply that to stop this radicalization? The 
other question would be, are your researchers Muslims? Because 
I don't know that I, as a Christian, can have any real positive 
impact on that progression in the stream. It seems to me that 
this has to be fellow Muslims or Islamists who have to figure 
out a way to stop that conversion from fundamentalist to 
radicals. Is there something you could actually do with the 
research that you are coming up with?
    Dr. Weiss. Well, let me highlight a different undertaking 
that the National Science Foundation provides funding for. That 
is the World Values Survey. This is a global survey of 
attitudes. We, as well as a number of other nations, provide 
funds to gather these data. Researchers within the United 
States at Eastern Michigan University, who I believe are of 
Middle-Eastern background, in fact just last week were in Egypt 
at an international convention or symposium to discuss their 
findings regarding attitudes among Iraqis in this particular 
case, and how the data from the surveys could be interpreted to 
help mitigate the problems in the Middle East.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Baird.
    Mr. Baird. I again appreciate all your testimony.
    Dr. Weiss, just very briefly, I just want to thank you for 
acknowledging the people who step forward to help you with 
this. I know that in the academic literature there was some 
debate about whether it was appropriate for academicians to be 
helping the military, and there was actually some criticism 
about that which I found rather frustrating.
    I wish the folks who criticize those academicians could 
hear your testimony and hear that they were saving lives, not 
just U.S. lives, but coalition lives and soldiers on the 
ground, and civilians to a large number. So thank you for 
acknowledging them and for that recognition. And thanks to them 
on behalf of this committee.
    Dr. Weiss, one of the things that I have been particularly 
focused on as the chair of our subcommittee has been grand 
challenges in the social sciences. You could look at those such 
as energy, health care, national security. One of the questions 
as I look at research that we fund through NSF is a notion that 
they call path-to-impact. Your comparable agency down in New 
Zealand refers to it as path-to-impact.
    So someone proposes to NSF that this is the research we 
want to do. The question is I think on the minds sometimes of 
this committee and sometimes of the Congress is if we are 
spending taxpayer dollars on research, where is the path-to-
impact? I know there is this balance between basic research, 
but somewhere in the general public--the loggers, the 
fishermen, the steelworkers, the nurses, whoever is working for 
their living, wanting to get the money out--they want to know 
what the path-to-impact is.
    How do you relate that to the testimony we have heard today 
and the challenges we face in national security?
    Dr. Weiss. Well, as mentioned, the National Science 
Foundation funds basic research. But we judge the proposals on 
two primary criteria. Those are the scientific merit, as well 
as what we call the broader impacts. The path-to-impact would 
be an alternative. All proposals are judged on both those 
criteria.
    Now, granted that in some cases the impacts may not be 
obvious at first, but what we have often found is that 10 years 
down the road, there may be a payoff that was never 
anticipated. But there can also be impacts that revolve around 
the basics of the research. Those are training future 
generations, research on areas that may not have any obvious 
immediate payoff, but which intrigue people and as a result 
improve scientific literacy in our public.
    We do understand what you are saying, however, and we have 
made a concerted effort of late to ensure that the titles of 
research projects cut to the importance of it, that the 
abstracts of the awarded research demonstrates why the research 
does have the potential for an impact. So we are very sensitive 
to the point that you are raising.
    Mr. Baird. I appreciate that very much.
    Dr. Segal, one final question is, you know, you have done 
some really remarkable work. I appreciated reading your 
testimony and the topics you and your graduate students and 
others have studied. One of the intriguing questions--and 
Chairman Smith and I were just discussing it briefly--so many 
of these cultures and the environments we are operating in have 
just had generations now of horrific conflict, Afghanistan, 
Iraq, Darfur. It is not just that we are no longer in just the 
sort of symmetric warfare, but the cultures we are in, the 
people have been through hell, literally. Do we have some 
insights into how that is affecting people and how that can 
change the human terrain as it were?
    Dr. Segal. I certainly can't speak to changes in the human 
brain. That is for a physiologist, but the terrain, okay.
    Mr. Baird. The kind of thing that Colonel Schweitzer 
referred to.
    Dr. Segal. Sorry. Clearly, we know that exposure to 
conflict has an impact on people. One doesn't have to be in an 
area of the world where conflict has been going on for 
generations. We can see it in the soldiers that we have coming 
back from Afghanistan and Iraq. Where it has become part of the 
social fabric, there is every reason to believe--and I am here 
talking about probabilities; this is not an area where we have 
rigorous measurement--that it will take a long time to get over 
it.
    We are not talking about well, gee, we can improve the 
situation in Iraq or Afghanistan within a few years, and then 
everything will be fine. You really have a generation of people 
on the ground who have grown up in that environment. It is very 
possible that that generation will have to pass on, and another 
generation that grows up in a different environment comes to 
power in that area, to really begin to see the long-term 
consequences.
    Mr. Baird. One final comment, and it would be just that our 
country has invested many, many billions of dollars in mapping 
the physical terrain. The Global Positioning System (GPS) 
systems which we now find in our automobiles were based on the 
recognition that it is foolhardy to send our military forces 
into a world in which they don't know the terrain. You are 
endangering the soldiers, you are endangering the civilians, 
you are endangering the success of the mission.
    What I find so encouraging and interesting and challenging 
about today's hearing is the recognition that that human 
terrain, which we may not be able to map from a satellite or 
trace with the GPS, may be absolutely as important to the 
success of the mission and the survival of our soldiers and the 
people we are trying to serve.
    Thank you for your testimony and your work.
    I thank the chair for holding this hearing.
    Mr. Smith. Thank you.
    I will close simply by agreeing with everything Mr. Baird 
just said. I think that was the purpose of this hearing. I 
think it was very, very informative. We look forward to finding 
ways within both of our committees to be helpful to what all of 
you are working on.
    I thank you for your testimony today.
    We are adjourned.
    [Whereupon, at 10:44 p.m., the subcommittees were 
adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 24, 2008

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 24, 2008

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 24, 2008

=======================================================================

      
      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 24, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LIPINSKI

    Mr. Lipinski. Your university's program in military sociology is 
the largest of its kind in the country, but you have only four faculty 
and ten graduate students. Approximately how many other university-
based military sociology research programs are there? And which 
universities conduct most of this research?
    Dr. Segal. Military sociology is a small specialty within the 
discipline, and since the 1950s it has been dominated by only one 
sociology department at any one time: first by the University of 
Michigan, then by the University of Chicago, then by Northwestern 
University, and, since the 1980s, by the University of Maryland. These 
departments have accounted for the greater part of the corpus of 
research in the field. However, there are military sociologists on the 
faculties of other universities who conduct research and train graduate 
students, particularly Texas A&M, the University of Texas at Austin, 
and Buffalo. And our PhD.s have gone on to other institutions, 
including Johns Hopkins and Western Illinois University in recent 
years. In addition, graduate students are doing doctoral work at other 
universities that involve writing dissertations in military sociology, 
although their faculty advisors are not military sociologists. They 
frequently coordinate with Maryland faculty in writing their 
dissertations, and we have served on dissertation committees at other 
universities. In addition to the departments named here, research in 
military sociology is conducted at the U.S. Military Academy, the U.S. 
Naval Academy, and the U.S. Air Force Academy. Although these 
institutions do not have graduate students, they have faculty members, 
both civilian and military, who have Ph.D.s in military sociology, and 
who have active research programs. These programs are helping to groom 
the next generation of military officers who will be military 
sociologists during their academy educations. We coordinate closely 
with the service academies.
    Mr. Lipinski. Do you have a sense of the total number of faculty 
and graduate students working in this area across the country? Is there 
a critical mass of researchers in the field now? What are the prospects 
for the future?
    Dr. Segal. The numbers are hard to estimate. The major professional 
association of military sociologists--the Inter-University Seminar on 
Armed Forces & Society (IUS)--has over 600 members, but it is 
international, interdisciplinary, and the number includes advanced 
graduate students. On the basis of the number of professional papers 
given at IUS meetings, meetings of the American Sociological 
Association, meetings of regional sociological societies, and meetings 
of interdisciplinary organizations that have heavy sociological 
participation, I would estimate that there are more than 50 but fewer 
than 100 sociology Ph.D.s at American universities currently doing 
research in military sociology. I would also estimate that in addition 
to students in our program, there are another 10-15 at other Ph.D. 
granting institutions in the United Stats. In Terms of critical mass, 
this is enough to sustain the field, but far from enough to meet the 
research needs of the field. There is much basic research that needs to 
be done, and we get far more offers to support applied research 
projects than we have the personnel to address. With regard to the 
future, the field is growing slowly. Over the last decade, I have seen 
significantly increased interest among young graduate students in 
studying the changing military and the changing nature of military 
conflict. Moreover, the American sociological Association, our major 
discipline-based professional organization, has been increasingly 
supportive of sociologists studying the military (unlike professional 
organizations in anthropology and psychology). However, my generation 
of military sociologists--primarily people trained at the University of 
Chicago in the 1960s and early 1970s--is nearing retirement, and while 
there is a very promising younger generation currently in graduate 
school or recently finished, the generation in between is generally 
missing--a casualty, I suspect of academic opposition to the Vietnam 
War. To create the next generation of leaders in the field of military 
sociology, we will have to attract to the field with training grants 
mid-career scholars who bring other human capital to the table, e.g., 
organizational sociologists and demographers, or accelerate the 
development of the younger generation through post-doctoral training 
programs. Increasing the number of Ph.D.s in the field, particularly at 
institutions that have already established a record of training 
military sociologists, will in turn enable us to educate an increased 
number of new research-oriented Ph.D.s.
    Mr. Lipinski. Dr. Van Tilborg, does DOD or the individual services 
that support social and behavioral research have difficulty identifying 
sufficient numbers of scholars to carry out the needed research? In the 
wake of Secretary Gates' recent efforts to expand DOD's support for 
this kind of research, are you aware of any concerns about insufficient 
numbers of graduate students or researchers?
    Dr. Van Tilborg. At this time, the Department is not aware of a 
shortage of graduate students or researchers to support social and 
behavioral research.
    Mr. Lipinski. Your university's program in military sociology is 
the largest of its kind in the country, but you have only four faculty 
and ten graduate students. Approximately how many other university 
based military sociology research programs are there? And which 
universities conduct most of this research?
    Dr. Segal. Military sociology is a small specialty within the 
discipline, and since the 1950s it has been dominated by only one 
sociology department at any one time: first by the University of 
Michigan, then by the University of Chicago, then by Northwestern 
University, and, since the 1980s, by the University of Maryland. These 
departments have accounted for the greater part of the corpus of 
research in the field. However, there are military sociologists on the 
faculties of other universities who conduct research and train graduate 
students, particularly Texas A&M, the University of Texas at Austin, 
and Buffalo. And our Ph.D.s have gone on to other institutions, 
including Johns Hopkins and Western Illinois University in recent 
years. In addition, graduate students are doing doctoral work at other 
universities that involve writing dissertations in military sociology, 
although their faculty advisors are not military sociologists. They 
frequently coordinate with Maryland faculty in writing their 
dissertations, and we have served on dissertation committees at other 
universities. In addition to the departments named here, research in 
military sociology is conducted at the U.S. Military Academy, the U.S. 
Naval Academy, and the U.S. Air Force Academy. Although these 
institutions do not have graduate students, they have faculty members, 
both civilian and military, who have Ph.D.s in military sociology, and 
who have active research programs. These programs are helping to groom 
the next generation of military officers who will be military 
sociologists during their academy educations. We coordinate closely 
with the service academies.
    Mr. Lipinski. Do you have a sense of the total number of faculty 
and graduate students working in this area across the country? Is there 
a critical mass of researchers in the field now? What are the prospects 
for the future?
    Dr. Segal. The numbers are hard to estimate. The major professional 
association of military sociologists--the Inter-University Seminar on 
Armed Forces & Society (IUS)--has over 600 members, but it is 
international, interdisciplinary, and the number includes advanced 
graduate students. On the basis of the number of professional papers 
given at IUS meetings, meetings of the American Sociological 
Association, meetings of regional sociological societies, and meetings 
of interdisciplinary organizations that have heavy sociological 
participation, I would estimate that there are more than 50 but fewer 
than 100 sociology Ph.D.s at American universities currently doing 
research in military sociology. I would also estimate that in addition 
to students in our program, there are another 10-15 at other Ph.D. 
granting institutions in the United States. In terms of critical mass, 
this is enough to sustain the field, but far from enough to meet the 
research needs of the field. There is much basic research that needs to 
be done, and we get far more offers to support applied research 
projects than we have the personnel to address. With regard to the 
future, the field is growing slowly. Over the last decade, I have seen 
significantly increased interest among young graduate students in 
studying the changing military and the changing nature of military 
conflict. Moreover, the American Sociological Association, our major 
discipline-based professional organization, has been increasingly 
supportive of sociologists studying the military (unlike professional 
organizations in anthropology and psychology). However, my generation 
of military sociologists-primarily people trained at the University of 
Chicago in the 1960s and early 1970s--is nearing retirement, and while 
there is a very promising younger generation currently in graduate 
school or recently finished, the generation in between is generally 
missing--a casualty, I suspect of academic opposition to the Vietnam 
War. To create the next generation of leaders in the field of military 
sociology, we will have to attract to the field with training grants 
mid-career scholars who bring other human capital to the table, e.g., 
organizational sociologists and demographers, or accelerate the 
development of the younger generation though post-doctoral training 
programs. Increasing the number of Ph.D.s in the field, particularly at 
institutions that have already established a record of training 
military sociologists, will in turn enable us to educate an increased 
number of new research-oriented Ph.D.s.
    Mr. Lipinski. You mention in your testimony that of the basic 
research supported within the Directorate for Social, Behavioral, and 
Economic Sciences (SBE) at NSF, approximately 10-15% might be of clear 
and immediate interest to the military. Is that an estimate based on 
the SBE budget or on the total number of SBE grants? Please provide an 
estimate of both total funding and number of these grants.
    Dr. Weiss. The National Science Foundation (NSF) supports basic 
research in the social and behavioral, or human, sciences. As such it 
is often the case that research in what might appear to be one 
scientific realm informs scientists and policy makers more broadly. For 
instance, research on teamwork in one setting may be predictive of 
human interaction in a multitude of circumstances. thus, any attempt to 
determine which basic research projects might be of interest to the 
military is indeed an estimate.
    Prior to preparing my testimony I informally surveyed relevant 
program officers as to the percent of awards they felt might be of 
clear and immediate interest to the military and the 10-15% figure was 
often mentioned. In making the estimate program officers considered 
awards that might be relevant to the Department of Defense (DOD) either 
by virtue of a focus on topics directly related to national security or 
through a focus on topics that bear on teamwork or the operation of 
organizations such as DoD.
    The two research divisions within the Social, Behavioral and 
Economic Sciences are the Division of Behavioral and Cognitive Sciences 
(BCS) and the Division of Social and Economic Sciences (SES). In 2007, 
the two divisions combined to process approximately 1,000 award 
actions. This figure includes new awards as well as increments granted 
to awards made in prior years. Thus we estimate that approximately 100-
150 award actions involved proposals that we believe the military would 
find to be of value.
    Please note that these awards run the gamut from support of 
doctoral dissertation research to large, multi-institutional and 
interdisciplinary team projects. A reasonable estimate of total 
investment in awards related to either national security or the 
operation of teams or organizations is approximately $10-20M per year.
    A few examples of projects that we view as pertinent include:

    I. Social & Behavioral Science Research Relevant to 
National Security

 Title:                               Collaborative Research: Mitigating
                                      Disaster and Terrorism Impacts to
                                      Critical InfrastructurePI(s):                               Timothy Matisziw (Ohio State
                                      University), Tony Grubesic
                                      (Indiana University)Program:                             Geography and Regional SciencesAward ID:                            0720989, 0718091Award $:                             $234,197Summary:                             This collaborative research project
                                      will develop several new
                                      approaches for examining critical
                                      network infrastructures such as
                                      transportation, communication, and
                                      utility systems, and assessing
                                      their vulnerability to
                                      debilitation caused by disaster,
                                      accident, or intentional harm.------------------------Title:                               Collaborative Research: Interactive
                                      Deception and its Detection
                                      through Multimodal Analysis of
                                      Interviewer-Interviewee DynamicsPI(s):                               David McNeill (University of
                                      Chicago): Judee Burgoon (Univerity
                                      of Arizona); Dimitris N Metaxas
                                      (Rutgers University New
                                      Brunswick); Timothy R. Levine
                                      (Michigan State University)Program:                             Human and Social DynamicsAward ID:                            0725607, 0725685, 0725762, 0725895Award $:                             $1,253,851Summary:                             This collaborative multi-
                                      disciplinary research seeks to
                                      uncover the complexities and
                                      dynamics of the communication
                                      processes that make deception
                                      possible, as deception is a
                                      pervasive feature of social life
                                      that is often undetected because
                                      deceivers capitalize on features
                                      of the interpersonal communication
                                      process The highly multi-
                                      disciplinary team includes
                                      researchers in communication,
                                      linguistics, psychology computer
                                      science and management information
                                      systems.------------------------Title:                               Doctoral Dissertation Research in
                                      Political Science: The Treatment
                                      of Ethnic-Others During Violent
                                      ConflictsPI(s):                               Lisa Wedeen (University of Chicago)Program:                             Political ScienceAward ID:                            0418474Award $:                             $12,000Summary:                             The proposed project will advance
                                      knowledge about the role of
                                      ethnicity in violent contexts by
                                      both testing it against
                                      alternative explanations such as
                                      military strategy, and by
                                      exploring whether and why the
                                      importance of ethnicity varies
                                      among different communities------------------------Title:                               Risk-based Methodological Framework
                                      for Scenario Tracking and
                                      Intelligence Collection and
                                      Analysis for TerrorismPI(s):                               Yacov Haimes University of VirginiaProgram:                             DRMS (also MMS, Disaster Response
                                      Teams, and Infrastructure Systems
                                      Management and Hazard ResponsesAward ID:                            0322146Award $:                             $473,399Summary:                             This project seeks out useful
                                      insights about how to anticipate
                                      and more readily discover
                                      terrorist attacks in the planning
                                      phase, based on the major premise
                                      that in planning, supporting, and
                                      carrying out a terrorist plot,
                                      those involved will conduct a
                                      series of related activities
                                      constituting a threat scenario,
                                      which can be systematically
                                      observed and analyzed with the
                                      right intelligence and acquirable
                                      evidence.------------------------Title:                               Perceptions of the Past, Present,
                                      and the Future: A Survey of the
                                      Iraqi PublicPI(s):                               Mansoor Moaddel (Eastern Michigan
                                      University)Program:                             Human and Social DynamicsAward ID:                            0433773Award $:                             $120,438Summary:                             This project examines worldviews of
                                      the Iraqi public and the social
                                      effects of the Iraqi State's swift
                                      breakdown, and the resulting new
                                      social conditions. In addition to
                                      broad social science implications
                                      on cultural transformation, state
                                      formation, foreign occupation, and
                                      national identity, this research
                                      will make important contributions
                                      specific to the political
                                      situation in Iraq, enhancing
                                      understanding between the American
                                      and Iraqi publics, and providing
                                      insights into Iraqi society
                                      necessary for building a post-
                                      Saddam democratic polity.------------------------Title:                               The Impact of Terrorism on
                                      Perceptions of Justice and
                                      Decision-MakingPI(s):                               Angela Cole (Howard University)Program:                             Social Psychology, Decision Risk &
                                      Management SciencesAward ID:                            0422544Award $:                             $125,376Summary:                             This research project will
                                      investigate the effects of
                                      security threats and death-related
                                      thoughts on people's decision-
                                      making processes, which is a
                                      particularly relevant research
                                      question in light of the events of
                                      September 11, 2001, during and
                                      after which Americans appear more
                                      willing to defer without
                                      reservation to authorities'
                                      imposition of severe restrictions
                                      on civil liberties, with very
                                      little opportunity for public
                                      comment and discussion.
      
      
    II. Social & Behavioral Science Research Relevant to 
Teamwork & Cooperation
 Title:                               Doctoral Dissertation Research:
                                      Group Allegiance and State
                                      Institutions in Kyrgyz IdentityPI(s):                               Roy G. D'Andrade, with graduate
                                      student Schuan G. Wheeler
                                      (University of Connecticut)Program:                             Cultural AnthropologyAward ID:                            0717091Award $:                             $14,530Summary:                             This research will build a general
                                      model of how individuals navigate
                                      group allegiances in ways that
                                      motivate them to participate in
                                      large scale social action, and
                                      will yield a useful modeling tool
                                      for the development of successful
                                      policies, development programs,
                                      and social interventions for an
                                      array of geopolitical contexts.------------------------Title:                               A Field Experiment Incentivizing
                                      Exercise Among WorkersPI(s):                               Heather Royer (Case Western
                                      University)Program:                             Decision & Risk Management
                                      Sciences, EconomicsAward ID:                            0819804Award $:                             $264,288Summary:                             This research explores theories of
                                      economic incentive as motivational
                                      factors in the exercise habits of
                                      American adults, and the duration
                                      of an intervention's effect on
                                      participants' long-term behavior.
                                      The results will help improve the
                                      design of wellness plans and
                                      healthcare policies will
                                      contribute significantly to the
                                      understanding of self-control,
                                      psychological barriers, and
                                      motivation in diverse domains
                                      beyond that of exercise and will
                                      have important implications for
                                      promoting successful motivation
                                      practices among workers, teams and
                                      other groups.------------------------Title:                               Reciprocal Learning in Problem-
                                      Solving Teams: A Multi-method
                                      Investigation of Knowledge
                                      Bridging in Emergent GroupsPI(s):                               Philip Birnbaum-More (University of
                                      Southern California)Program:                             Innovation and Organizational
                                      SciencesAward ID:                            0725088Award $:                             $449,188Summary:                             This study will examine key
                                      mechanisms in the functioning of
                                      innovative emergent groups, or
                                      teams of relative strangers who
                                      cross disciplines, functions, and
                                      organizations, to rapidly come
                                      together and leverage diverse
                                      knowledge to solve problems,
                                      focusing specifically on how such
                                      a team decides who has relevant
                                      knowledge and capabilities, and
                                      who can be trusted as problems and
                                      their solutions evolve and change.
                                      The study will yield practical,
                                      empirically validated job aids to
                                      facilitate rapid group problem-
                                      solving, which will be relevant to
                                      any organization or teamwork
                                      scenario, including those within
                                      the structure and mission of DoD.------------------------Title:                               Accuracy in the cross-cultural
                                      understanding of others' emotionsPI(s):                               Hillary Anger Elfenbein (UC
                                      Berkeley)Program:                             Social PsychologyAward ID:                            0617634Award $:                             $205,517Summary:                             This proposal seeks to better
                                      understand how humans recognize
                                      the emotional states of other
                                      people which is important for
                                      gauging reactions, attitudes,
                                      intentions, and likely future
                                      behaviors, with the research
                                      focusing how and why the accuracy
                                      of such perceptions is
                                      demonstrably lower when reading
                                      emotional expressions of
                                      individuals from foreign cultural
                                      groups. The project will also
                                      provide guidance to overcome this
                                      cross-cultural challenge.
      
      
    III. Education & Training for Social & Behavioral Science 
Research Relevant to National Security
 Title:                               REU Site: Hazards, Disasters, and
                                      Society: Training the Future
                                      Generations of Social Science
                                      ResearchersPI(s):                               Havidan Rodriguez (University of
                                      Delaware)Program:                             Researh Experiences for
                                      Undergraduates, Co-funded by DOD
                                      (ASSURE program)Award ID:                            0451219Award $:                             $217,330Summary:                             This research site involves
                                      undergraduates in social science
                                      research projects related to
                                      disaster mitigation, preparedness,
                                      response and recovery, warnings
                                      and technology, and disaster
                                      vulnerability and resilience, and
                                      also provides professional
                                      development workshops to prepare
                                      students for research careers.------------------------Title:                               Research, Experience for
                                      Undergraduates in Fatigue Effects
                                      on Performance in Military,
                                      Medical, and Law Enforcement
                                      PersonnelPI(s):                               Lauren Fowler (Weber State
                                      University)Program:                             Researh Experiences for
                                      Undergraduates, Co-funded by DOD
                                      (ASSURE program)Award ID:                            0648735Award $:                             $106,880Summary:                             This program will provide support
                                      for undergraduate students to
                                      design and conduct independent
                                      research in collaboration with
                                      researchers from Weber State
                                      University and the Air Force
                                      Warfighter Fatigue Countermeasures
                                      Branch, examining the effects of
                                      fatigue on physiological,
                                      psychological, cognitive,
                                      behavioral, health, and social
                                      performance in military, medical,
                                      andnforcement personnel.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. There are some inside and outside of the anthropological 
community who are resisting the participation of academic community or 
anthropologists to support HTT efforts. How have you handled this 
resistance?
    Colonel Schweiter. From the unit perspective there is no impact. 
The Program Manager (PM) Human Terrain System (HTS) has engaged the 
anthropological community in an open manner. PH HTS has been a member 
of the American Anthropological Association (AAA) and Society for 
Applied anthropology for over a year. PM HTS personnel attended the 
last AAA convention as well as numerous AAA and other anthropological 
associations' conferences. Many of the HTS program's Social Scientists 
are long-standing members of the AAA and other anthropological 
associations. As such HTS personnel are continually engaged in the 
discussion within their professional community. It should be noted that 
many within the anthropological community support and participate in 
the HTS program. This is substantiated by the professionals that 
supported my unit, and the ever-growing number of social scientists 
that participate in the HTS program as it provides support to more 
units in OIF and OEF.
    Mr. Smith. There are some inside and outside of the anthropological 
community who are resisting the participation of academic community or 
anthropologists to support HTT efforts. Has the resistance affected 
your ability to work with the HTTs to accomplish your mission?
    Colonel Schweiter. Not at all. The experts on the HTTs have been 
and will continue to be value added in every regard of dealing with the 
complex operations in Afghanistan. Their contributions have been 
invaluable.
    Mr. Smith. There are some inside and outside of the anthropological 
community who are resisting the participation of academic community or 
anthropologists to support Human Terrain Team (HTT) efforts. What would 
you say to mollify their concerns?
    Dr. Van Tilborg. I understand their criticisms and concerns. The 
strongest argument in favor of HTTs that comprise academics is that 
they seem to work. The evidence seems to indicate that HTTs reduce the 
intensity and scale of combat operations considerably, resulting in 
significantly reduce the intensity and scale of combat operations 
considerably, resulting in significantly reduced casualties for both 
Coalition Forces and the local population.
    Mr. Smith. What legal or regulatory structures are in place to 
guide this type of research (for example, privacy protection 
regulations or policies related to human or animal testing)? Are there 
structural prohibitions that prevent the effective development or use 
of socio-culture tools, anthropologists, etc. . .?
    Colonel Schweiter. Research involving human rights is covered by 32 
Code of Federal Regulations 219 ``Protection of Human Subjects'' and 
DoDD 3216.02 ``Protection of Human Subjects and Adherence to Ethical 
Standards in DoD-Supported Research,'' among others.
    Mr. Smith. The Defense FY09 request included a significant increase 
in the overarching basic research budget (about $270 million). How much 
is the Department currently spending on behavioral and social science 
basic research?
    Dr. Van Tilborg. The basic research program is executed primarily 
through the Military Departments research offices. Currently, there are 
three Multidisciplinary University Research Initiative (MURI) topics, 
one per Military Department, focused specifically on socio-cultural 
understanding. This is equivalent to a $3M/year investment. In Fiscal 
Year 2008, the other investments of basic research funds (Budget 
Activity 1) for social science research are $6.2M for the Navy, $9.7M 
for the Army, and $3.5M for the Air Force.
    Mr. Smith. The Defense FY09 request included a significant increase 
in the overarching basic research budget (about $270 million). And how 
much of the increased funding is planned for this area across the 
Defense future budget?
    Dr. Van Tilborg. For Fiscal Year 2009, the increased basic research 
amount will fund two separate Department-wide Broad Agency 
Announcements (BAA), one each in Defense Research Sciences and 
University Research Initiatives (URI).
    Increased funding will be applied to specific areas from a set of 
eleven Grand Capability Challenges. One of those areas is Human 
Sciences (cultural, cognitive, behavioral, neural). Contingent on the 
quality and relevance of responses received for this area, up to $25 
million annually could be awarded for this research over the Future 
Years Defense Plan (FYDP).
    DoD issued a separate BAA found at http://www.arl.army.mil/www/
default.cfm?Action=6&Page=8 for the MINERVA social science initiative 
which will be funded in Fiscal Year 2009 by each Service at around $3 
million from the URI portion of those funds. The anticipated duration 
of each project is one five year term with the possibility of one 
renewal. The Department projects that the URI component of the MINERVA 
initiative will cost about $10 million each year over the FYDP, 
depending on the number, quality, and scope of the proposals that are 
received, evaluated, and selected.
    Mr. Smith. The Defense FY09 request included a significant increase 
in the overarching basic research budget (about $270 million). Does any 
of this funding support the generation of a new workforce that the 
Department may call on to support its socio-culture needs?
    Dr. Van Tilborg. Yes, DOD basic research in the social sciences 
will support undergraduate and graduate students who the Department may 
be able to call on.
    Mr. Smith. Are we putting the same rigor in behavioral and social 
science research, as we put in other areas of research--especially in 
terms of understanding the risk and the need for robust metrics?
    Dr. Van Tilborg. Yes the intention is to put the same rigor into 
social science research as we find in the more traditional `hard' 
sciences. It is a misperception to think that the so-called `soft' 
sciences do not follow rigorous experimentation and inferential 
statistical methodologies. Work in the area of Human Social, Culture 
and Behavior (HSCB) Modeling will be challenging. To understand and 
forecast human and social behaviors is very complex. Part of this 
program's efforts is focused on developing quantitative metrics and 
validation methodologies and processes for modeling in this area.
    Mr. Smith. As you know, when new concepts or novel technological 
capabilities emerge we often see a growth of activities, often 
duplicative efforts across the Department. Do you see an expansion 
happening in this area?
    Dr. Van Tilborg. Yes, we are deliberately attempting to expand 
research in this area because of its potential for application in 
various military missions. The expansion is being done in a 
collaborative and joint fashion that will assure duplicative efforts 
are avoided. The research community within DOD that is beginning to 
take on this work is relatively small. Coordination within DOD is being 
managed via existing processes for oversight within the Human Sciences 
area.
    Mr. Smith. As you know, when new concepts or novel technological 
capabilities emerge we often see a growth of activities, often 
duplicative efforts across the Department. What is the Department doing 
to assure that taxpayers' dollars are effectively spent on healthy 
competition of ideas and not wasting their dollars on duplicative 
programs?
    Dr. Van Tilborg. The Human Social, Culture and Behavior (HSCB) 
Modeling program is advertised via the issuance of Broad Agency 
Announcements (BAA), with full and open competition for all three 
budget activities (Budget Activity 2, 3, and 4). In Budget Activity 1, 
Multidisciplinary University Research Initiatives (MURI) are also 
executed via a BAA and with open competition. BAAs typically attract a 
large number of competitors throughout industry and academia who 
propose many research and demonstration ideas. These proposals are 
down-selected by subject matter experts to ensure that only the most 
innovative and meritorious proposals are funded, and that duplication 
is avoided.
    Mr. Smith. Along this same line, I understand that the Programs, 
Analysis and Evaluation (PA&E) office within the Department recently 
issued a Request for Information (RFI) regarding an Agent-Based 
Modeling of Irregular Warfare (ABMIW), which is a computer model that 
will forecast the consequence of specific actions. Are you aware of 
this effort? If so, how are you coordinating with PA&E?
    Dr. Van Tilborg. We are fully aware of the RFI from PA&E on ABMIW. 
ABMIW did not go beyond the RFI phase. Instead, a decision was made by 
PA&E and the Joint Staff to do an assessment of the Defense Advanced 
Research Projects Agency (DARPA) Conflict Modeling, Planning, and 
Outcome Experimentation (COMPOEX) program and COMPOEX tools as part of 
a wargaming effort. The Office of the Deputy Under Secretary of Defense 
(Science and Technology) is actively involved with this assessment and 
in discussions with the COMPOEX program managers on the possible 
transition (pending the assessment) of this work into operational use. 
We are also aware of the other modeling efforts, their evaluations of 
research products in this topic area and other interests within PA&E. 
Staff within PA&E participated in the Fiscal Year 2008 Human Social, 
Culture and Behavior (HSCB) proposal solicitation and review process.
    Mr. Smith. Along this same line, I understand that the Programs, 
Analysis and Evaluation (PA&E) office within the Department recently 
issued a Request for Information (RFI) regarding an Agent-Based 
Modeling of Irregular Warfare (ABMIW), which is a computer model that 
will forecast the consequence of specific actions. What mechanisms are 
in place to promote coordination of behavioral and social science 
research efforts across the Services and Agencies? Is there a formal or 
process-driven mechanism?
    Dr. Van Tilborg. The Department's Science and Technology 
investments are coordinated through a formal process called Reliance 
21. All of the Services and Science and Technology (S&T) agencies 
participate in Reliance 21, led by the Director, Defense Research and 
Engineering (DDR&E). Coordination of behavioral and social science 
research efforts falls under the Human Systems Defense Technology Area, 
which is overseen by the Director for Biosystems in the DDR&E office. 
The Human Social, Culture and Behavior (HSCB) program and the other 
related S&T work in the DOD Components are coordinated within their 
purview.
    Mr. Smith. The DOD S&T community has been primarily managed by 
scientists and engineers with hard science backgrounds. How are you 
reaching out to recruit social scientist to manage human, social, and 
cultural behavior-type efforts?
    Dr. Van Tilborg. I believe that the DOD has a sufficient number of 
social scientists, both military and civilian, who have experience in 
program management, modeling and simulation, training, and decision aid 
development to manage the Human Social, Culture and Behavior (HSCB) 
program. To supplement that staff, the Department is drawing on 
expertise from social scientist in academia, Federally Funded Research 
& Development Centers (FFRDCs), DOD educational institutions, and other 
agencies of the Federal Government, such as the National Science 
Foundation, to assist with tasks such as Broad Agency Announcement 
(BAA) preparation and proposal review.
    Mr. Smith. The DOD S&T community has been primarily managed by 
scientists and engineers with hard science backgrounds. I would imagine 
that there are others in the world, perhaps better qualified to support 
socio-cultural activities, is there a process for getting them into the 
human terrain system?
    Dr. Van Tilborg. As noted in the answer to a previous question, 
staff with relevant expertise is being drawn from a variety of sources 
outside of the Department's scientists and engineers with hard science 
backgrounds to assist with the Human Social, Culture and Behavior 
(HSCB) program.
    Mr. Smith. The DOD S&T community has been primarily managed by 
scientists and engineers with hard science backgrounds. Are we 
sacrificing the recruiting of physical or biological scientists and 
engineers in an attempt to recruit more social scientists?
    Dr. Van Tilborg. No, I have not seen any evidence of such a trend 
to date.
    Mr. Smith. How are the Department's behavioral and social science 
research efforts linked with emerging policy and joint concepts (such 
as the new Counterinsurgency Field Manual; the Army's new Field Manual 
on operations; DOD Directive on Stability and Reconstruction 
Operations)? How do you link what is being learned in this research to 
operational users (and vice versa)?
    Dr. Van Tilborg. The social science research efforts are linked 
with these concepts via a number of coordination groups that were 
created out of the Office of the Secretary of Defenses Irregular 
Warfare Working Group. The Human Social, Culture and Behavior (HSCB) 
program, in particular, is establishing a program oversight group that 
includes both science and technology experts, as well as the 
operational users for HSCB and social science products. The users 
include the operations planning community, the training communities, 
military civil affairs, and field commanders. This oversight group is 
meant to help elucidate HSCB requirements and to ensure the acceptance 
of technology products in the field.
    Mr. Smith. The current vision for the Department's program called 
Human, Social, and Cultural Behavior (HSCB) Modeling is the low-hanging 
fruit that will have near-term impact for the warfighter. What takes 
the place of this effort when it is completed and transitions to the 
operational user community?
    Dr. Van Tilborg. The HSCB program was born out of the recognition 
that many of the `products' being developed and rapidly fielded to 
support efforts in Iraq were not being developed to be sustainable, 
generalizable to other uses or regions, and not being properly 
configured to be lifecycle managed. The HSCB program is using Budget 
Activity 4 funds in Fiscal Year 2008 and Fiscal Year 2009 to move some 
initial capabilities to the field. The HSCB program is targeting 
efforts that will `have a home' within existing command, control, and 
planning tools that are part of formal Programs of Record (POR). These 
PORs will manage the HSCB products life-cycle. Regarding Science and 
Technology efforts that may eventually follow HSCB, it is pre-mature to 
determine whether such efforts would be prudent investments until HSCB 
results can be evaluated.
    Mr. Smith. The current vision for the Department's program called 
Human, Social, and Cultural Behavior (HSCB) Modeling is the low-hanging 
fruit that will have near-term impact for the warfighter. Are there 
foundational efforts that need longer-term research that we should also 
be focused on?
    Dr. Van Tilborg. Yes. The HSCB program conducts a limited amount of 
foundational work in Budget Activity 2. Also, related efforts under the 
Multidisciplinary University Research Initiative in Budget Activity 1 
develop the foundational science base of socio-cultural modeling within 
a military context.
    Mr. Smith. Col Schweitzer mentioned at least one tool, MAP-HT, as 
being deployed last year to support the Human Terrain Team efforts. Are 
there other tools that are ready for transition?
    Dr. Van Tilborg. Yes. There are other tools and products that are 
mature enough for transition funding. However, they go beyond just 
support of Human Terrain Teams. The Human Social, Culture and 
Behavioral (HSCB) Modeling program is funding the transition of 
operational planning tools for Special Operations Forces that include 
socio-cultural considerations. There are also training and 
experimentation content and tools that could be transitioned in the 
near-term.
    Mr. Smith. Col Schweitzer mentioned at least one tool, MAP-HT, as 
being deployed last year to support the Human Terrain Team efforts. Is 
there adequate funding in place to transition the most promising near-
term technology?
    Dr. Van Tilborg. Funds from Human Social, Culture and Behavior 
(HSCB) Budget Activity (BA) 4 provide a mechanism for transitioning 
products to the warfighter. In Fiscal Year 2008, additional transitions 
may have been possible if BA 4 funds had been greater. The Fiscal Year 
2009 President's Budget for HSCB requests funds that would enable an 
increase in the number of products that transition to the warfighter.
    Mr. Smith. Can you please explain how you are balancing your 
investments across the spectrum of science and technology (basic 
research, applied research and advanced technology development) in the 
area of behavioral and social science?
    Dr. Van Tilborg. Investments in the Human Social, Culture and 
Behavior (HSCB) Modeling program are distributed across Budget 
Activities 2, 3, and 4 in a manner that facilitates maturation of 
technical concepts into tools that are ready for experimentation and 
demonstration in the relatively near term. The balance of resources in 
HSCB is heavily weighted to develop, demonstrate, and validate applied 
science and general-use capabilities and software tools to support HSCB 
applications in intelligence analysis, planning and education, training 
and experimentation.
    Mr. Smith. How are you balancing research to understand ourselves, 
and how to understand the cultural process of foreign societies?
    Dr. Van Tilborg. The Human Social, Culture and Behavior (HSCB) 
Modeling program's Broad Agency Announcement is not restricted to 
understanding non-Western societies and `red' forces. It was 
intentionally left open to allow for the study of our own forces, our 
own forces' ability to work within coalition forces, as well as in non-
coalition environments.
    Mr. Smith. How are you balancing investigator-driven (grants) 
versus governmental problem driven (contractors) research?
    Dr. Van Tilborg. The HSCB Fiscal Year 2008 Broad Agency 
Announcement (BAA) was used as the solicitation for both the 
commercial/industry offerors as well as the basis for government 
laboratory white paper submissions. The proposals were all evaluated by 
the same group of government experts and awards were made based upon 
merit. The basic research money that funds primarily academic 
institutions was run through the respective Service BAA processes.
    Mr. Smith. Is there a feedback mechanism for evaluating outcomes 
and introducing those lessons learned back into existing and proposed 
new research?
    Dr. Van Tilborg. The Human Social, Culture and Behavior (HSCB) 
Modeling program is establishing a program oversight group that 
includes both science and technology experts, as well as the 
operational users for HSCB and social science products. The users 
include the operational planning community, the training communities, 
military civil affairs, and field commanders. This oversight group is 
meant to help elucidate HSCB requirements and to ensure the acceptance 
of technology products in the field. In addition, the HSCB program 
coordinates with other ongoing efforts in the Department in the social 
science area. This includes connections to the Human Terrain 
Initiative, the Measuring Progress in Conflict Environments (MPICE) 
project, and others that are attempting to capture real-world use 
scenarios for social science products/concepts.
    Mr. Smith. How do we leverage the foreign expatriate communities 
within the U.S. to support behavioral and social research in a military 
context?
    Dr. Van Tilborg. Several of the proposed projects under the Human 
Social, Culture and Behavior (HSCB) Modeling program Broad Agency 
Announcement and the recent U.S. Army Multidisciplinary University 
Research Initiative Project in this area included using these 
populations as a data resource on non-Western cultures and beliefs. 
Other offerors suggested collaborations in other countries to collect 
such information/knowledge.
    Mr. Smith. How do we leverage our key partners and allies in these 
efforts?
    Dr. Van Tilborg. Staff members responsible for Human Social, 
Culture and Behavior (HSCB) Modeling program oversight also participate 
in the North Atlantic Treaty Organization's Human Factors and Medicine 
and The Technical Cooperation Program Human Resources and Performance 
Group efforts where ongoing panels are coordinating work across the 
represented nations in the area of socio-cultural understanding.
    Mr. Smith. What legal or regulatory structures are in place to 
guide this type of research (for example, privacy protection 
regulations or policies related to human or animal testing)? Are there 
structural prohibitions that prevent the effective development or use 
of socio-culture tools, anthropologists, etc. . .?
    Dr. Van Tilborg. Research involving human subjects is covered by 32 
Code of Federal Regulations 219 ``Protection of Human Subjects'' and 
Department of Defense Directive 3216.02 ``Protection of Human Subjects 
and Adherence to Ethical Standards in DoD-Supported Research,'' among 
others.
    Mr. Smith. There are some inside and outside of the anthropological 
community who are resisting the participation of academic community or 
anthropologists to support HTT efforts. How have you handled this 
resistance?
    Dr. Segal. Since I am a sociologist, not an anthropologist, I have 
been watching this resistance primarily as an outsider. I should note, 
however, that it is not confined to anthropology, although that is 
where the strongest opposition has occurred, and it is nothing new. The 
academic social science community turned against the military during 
the Vietnam War, when it failed to differentiate between the war and 
the people the nation sent to fight it. It was manifested in 
anthropology through opposition to Project Camelot. One of the victims 
was David Marlowe, a social anthropologist who was the long-time head 
of the Department of Military Psychiatry at the Walter Reed Army 
Institute of Research. He is a Harvard Ph.D. who was basically drummed 
out of the American Anthropological Association during the war, and 
never welcomed back.
    In sociology, the major military sociologists were all subjected to 
local attacks and harassment. Morns Janowitz was hanged in effigy at 
the University of Chicago, radicals tried to occupy Charles Moskos's 
office at Northwestern, and there was a sit-in outside my office at the 
University of Michigan. When I agreed to direct the sociological 
research program at the Army Research Institute during the early years 
of the volunteer army, a number of my colleagues questioned why I would 
do such a thing, but there was no disciplinary opposition as was 
manifested in anthropology. Sociology has since matured, to the point 
where the president of the American Sociological Association invited me 
to organize and preside over a panel at our annual meeting on 
sociological research and military policy, and the ASA selected me to 
receive an award for contributing to public understanding of sociology, 
for my analyses of war and the military. Anthropology has not moved far 
in this direction of legitimizing study in this area.
    The resistance in anthropology has largely been handled by working 
within professional organizations. What is now a sizable community of 
anthropologists who study the military has been acting as a caucus 
within the American Anthropological Association? In addition, John 
Allen Williams, who the president of the Inter-University Seminar on 
Armed Forces & Society, which is the major international and 
interdisciplinary professional organization of social scientists who 
study the military, made the issue of intrusion on academic freedom the 
theme of his presidential address last fall. He did this in support of 
the anthropologists. His presidential address was recently published in 
Armed Forces & Society, the major professional journal in the field.
    Mr. Smith. Has the resistance affected your ability to work with 
the HTTs to accomplish your mission?
    Dr. Segal. I haven't worked directly with HTTs. I have worked with 
civilian social scientists and with military officers who have worked 
with HTTs. I have had no problems with my colleagues, my university, or 
my discipline in this regard.
    Mr. Smith. What would you say to mollify their concerns?
    Dr. Segal. I have not been placed in this position. Were it to 
happen, I would argue for the HTT process both on the basis of it 
enabling military forces to accomplish their missions through the 
substitution of cultural understanding for firepower, thus reducing 
casualties and fatalities on both sides, and on the basis of academic 
freedom. I think the former argument is the more important and more 
persuasive.
    Mr. Smith. What legal or regulatory structures are in place to 
guide this type of research (for example, privacy protection 
regulations or policies related to human or animal testing)? Are there 
structural prohibitions that prevent the effective development or use 
of socio-cultural tools, anthropologists, etc . . .?
    Dr. Segal. All federally funded research on human subjects, whether 
it is conducted in the United States or abroad, is subject to federal 
regulations, designed to guarantee privacy, confidentiality, and 
minimization of risk to research subjects. Researchers are also bound 
by discipline-based codes of professional ethics, although these do not 
have the force of law. Most major American research universities have 
extended the human subject protections to all such research, regardless 
of whether it is federally funded. Thus a social scientist working for 
a university or for a federal agency is generally required to have a 
research protocol approved by an Institutional Review Board, to assure 
that human subject protections are in place. Universities and other 
research entities, in turn, are increasingly having their protection 
programs reviewed and accredited by the Association for Accreditation 
of Human Research Protection Programs, and organization sponsored by a 
consortium of medical and social science professional associations to 
assure the quality of such programs. I have served on the site visit 
teams for a number of such reviews, and can vouch for their quality.
    Mr. Smith. There are some inside and outside of the anthropological 
community who are resisting the participation of academic community or 
anthropologists to support HTT efforts.

        <all> How have you handled this resistace?

        <all>  Has the resistance affected your ability to work with 
        the HTTs to accomplish your mission?

        <all> What would you say to mollify their concerns?

    Dr. Weiss. The National Science Foundation (NSF) has a statutory 
mission ``to promote the progress of science; to advance the national 
health, prosperity, and welfare; and to secure the national defense . . 
.'' To meet this aim, the NSF invests in basic research that enables 
the Nation's future through discovery, learning and innovation.
    Human Terrain Teams (HTTs) are a program of the Department of 
Defense. As we understand these teams, they draw on the knowledge base 
of the social and behavioral sciences in order to provide the military 
with insights about social and cultural phenomena in Iraq and 
Afghanistan. Recognizing that the results of NSF-supported research are 
often published and shared across scientific research communities, it 
is to be expected that these results help to improve fundamental 
knowledge within the human sciences. There are multiple NSF programs 
that fund basic research in the human sciences. Thus, NSF-supported 
research certainly informs the HTTs, but NSF's programs do not directly 
or indirectly fund HTT activities.
    The deliberations that have taken place in the disciplinary 
communities about anthropologists supporting HTT efforts have been a 
matter of discussion within NSF, most recently at the Directorate for 
Social, Behavioral and Economic Sciences Advisory Committee meeting. 
Through such discussion we have heard both concerns about, and support 
for, HTTs. These discussions have also served as a forum for 
highlighting the fact that NSF is not involved in the HTT activities. 
However, there was a general feeling within the research communities 
that the greater the input by the human sciences into the DoD's 
deliberations, the more positive the outcome would be for the DoD, the 
HTTs, and the people of the local communities involved.
    Mr. Smith. What legal or regulatory structures are in place to 
guide this type of research (for example, privacy protection 
regulations or policies related to human or animal testing)?

        <all>  Are there structural prohibitions that prevent the 
        effective development of use of socio-culture tools, 
        anthropologists, etc . . .

    Dr. Weiss. The NSF takes seriously privacy protection, 
confidentiality, and safety. Any basic research project funded through 
the NSF requires conformance with the Common Rule (45 CFR 46) for the 
Protection off Human Research Subjects. Universities and other 
institutions must approve through their Institutional Review Boards 
(IRBs) research involving human research subjects. The NSF does not 
fund any research project involving human subjects that has not 
received IRB approval. Similarly, if research involves the use of 
vertebrate animals, an Institutional Animal Care and Use Committee 
(IACUC), must review and certify that the research provides sufficient 
protection for the care and use of laboratory and other animals. In 
both cases, the responsibility for review is placed on the 
institutions, and NSF will not expend funds for a research project in 
the absence of appropriate IRB and or IACUC approvals.
    The HTTs are supported by DoD; they are not funded by NSF. Thus, 
NSF is not involved in the regulation of HTT efforts nor does the 
agency play any role in decisions related to HTT activities.

                                  <all>

</pre></body></html>
